INDEX TO APPENDIX
Page No.
A.

Order Denying Petition for Rehearing
Ninth Circuit Court of Appeals .................................................................... 01
Filed October 28, 2020

B.

Order Denying Amended Petition
United States District Court ........................................................................ 02
Filed April 8, 2020

C.

Third Amended Petition for Writ of Habeas Corpus by a Person in State
Custody Pursuant to 28 U.S.C. § 2254
United States District Court ........................................................................ 42
Filed March 14, 2017

D.

Order of Affirmance
Nevada Supreme Court ................................................................................ 83
Filed June 22, 2016

E.

Judgment of Conviction
Eighth Judicial District Court ...................................................................... 85
Filed November 24, 2009

App.0001

ÿÿÿÿ¡ÿ¢£¤¥£¦§ÿÿ̈©ÿÿª«ÿ

xyz{|

123456ÿ748457ÿ9 1 4ÿ ÿ8 587ÿ
ÿ
ÿ
ÿ
ÿ45ÿ2324ÿ939134ÿ
~ÿ


ÿÿ
ÿ
ÿ
z ÿÿ| {ÿz{ÿ
65382ÿ6 3215ÿ88ÿ6ÿ ÿ2$ÿ,-./012ÿÿ ~z
ÿ~ÿ~xÿ{zÿ
6ÿÿ
ÿÿÿ
6$9$ÿ2$ÿ,3.,4#-.1-0586 658ÿÿ
ÿÿ
ÿ ÿ ÿ ÿ ÿ 8!!""ÿÿ 6*4ÿ6ÿ2#+ÿÿ
ÿÿ
*ÿ)*ÿÿ
ÿÿÿ#$ÿÿ
ÿÿ
ÿÿ
65 ÿ
% 382ÿ5$ÿ&3387'ÿ844 25(ÿ
525 8ÿ ÿ45ÿ74845ÿ ÿ
25)868ÿÿ
ÿÿ
ÿ ÿ ÿ ÿ ÿ *!+*8!!""*$ÿ
ÿ
%63ÿ &$ÿ5495 ÿ+ÿ$ÿ257 2ÿ94ÿ5+*$ÿÿÿ
ÿ 47ÿ8*ÿ6ÿÿ464ÿ6ÿ!!"9":ÿ;64<ÿ5:ÿ2$ÿ=>ÿ*ÿ++ÿ
?@ABCD@ÿBFF@GGBHIÿJBDÿHKIÿDJKLHÿIJBIÿMNCOPDIDÿKQÿO@BDKHÿLKCGRÿQPHRÿPIÿR@?BIB?G@ÿ
S77ÿ7ÿ!ÿ**ÿÿ#"+ÿ4"ÿ6ÿ7ÿ+"ÿ6ÿÿ4*"ÿ7ÿ+ÿ
7ÿT**ÿ6ÿ*ÿS"+ÿ6+ÿÿ+99"ÿS77ÿ7ÿ+*4ÿ4ÿS*ÿ44ÿ
PHÿPIDÿFOKA@RCOBGÿOCGPHUVWÿÿXYZ[\ÿ^_ÿ̀[aZbcdYÿ/,eÿ1$7$ÿ=2fÿ=0=ÿ;,--->'ÿgddÿZYghÿ,0ÿ
1$7$9$ÿiÿ,,/f;4>;,>'ÿjhbkZYdkÿ^_ÿlmZYdnÿ/1/ÿ1$7$ÿ.f=ÿ.=-=.ÿ;,-.,>'ÿ̀ cYYdnopYÿ^_ÿ
qh[\ndYYÿ/f2ÿ1$7$ÿf,,ÿf,2ÿ;,--f>$ÿ
ÿ 8:ÿ!+ÿ*ÿÿ++ÿ*ÿ$ÿ
rstusrvÿ
ÿ
ÿÿ

ÿÿ

ÿÿ

App.0002
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 1 of 40

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3 Demain Dominguez, aka Demian Dominguez,
4

Case No.: 2:12-cv-01608-JAD-DJA

Petitioner

5 v.

Order Denying Petition for
Habeas Relief and
Closing Case

6 Brian E. Williams, et al.,
7

Defendants

8

Petitioner Demain Dominguez was found guilty of robbery, burglary, conspiracy to

9 commit robbery, first-degree murder, conspiracy to commit murder, conspiracy to commit a
10 crime, and two use-of-deadly-weapon enhancements in Nevada State Court and sentenced to
11 multiple, consecutive 20-years-to-life sentences. 1 In a six-count petition, Dominguez seeks a
12 writ of habeas corpus under 28 U.S.C. § 2254 based on claims of insufficient evidence and
13 ineffective trial counsel. 2 I now address these claims on their merits. Because I find that habeas
14 relief is not warranted, I deny Dominguez’s petition, deny him a certificate of appealability, and
15 close this case.
16

Background

17 A.

The facts underlying Dominguez’s conviction 3

18

On January 30, 2007, at 3:39 a.m., Mark Friedman called 9-1-1, reporting that he had

19 been attacked and robbed by numerous individuals upon entering his home. Friedman’s
20
21
22
23

1

ECF No. 23-12.

2

ECF No. 61.

3

These facts are taken from Detective Dolphis Boucher’s and Dr. Gary Telgenhoff’s trial
testimonies. ECF Nos. 23, 23-4. For simplicity’s sake, I cite to these exhibits generally for this
entire background section.

App.0003
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 2 of 40

1 girlfriend, Lilani Tomines, was allegedly asleep in the home when the attack occurred. Friedman
2 was stabbed three times in the abdomen and kicked repeatedly in the head. He was taken to the
3 hospital where an exploratory laparotomy was done to determine whether any of his vital organs
4 had been injured. Friedman aspirated vomit during the procedure, which resulted in him fatally
5 suffering from asphyxiation due to pneumonia several days later.
6

Tomines’s telephone records revealed that she called Dominguez three times on the night

7 of Friedman’s attack. Dominguez originally denied being present at the attack and minimized
8 his relationship with Tomines. He later admitted to being present at the attack, but he claimed
9 that he was there only to speak with Friedman and attempted to defend him during the attack.
10 Dominguez and his brother, whose fingerprint was found at the scene, were both arrested.
11 Tomines was also arrested after it was determined that she owed Friedman a substantial sum of
12 money and fraudulently attempted to cash Friedman’s checks.
13 B.

Procedural history

14

On July 13, 2009, a jury found Dominguez guilty of conspiracy to commit robbery,

15 conspiracy to commit murder, conspiracy to commit a crime, burglary, robbery with the use of a
16 deadly weapon, and first-degree murder with the use of a deadly weapon. 4 Dominguez appealed,
17 and the Nevada Supreme Court affirmed on December 10, 2010. 5 Remittitur issued on January
18 4, 2011. 6 Approximately eight months later, Dominguez filed a state habeas petition. 7 The state
19
20
21
22
23

4

ECF No. 23-3.

5

ECF No. 23-21.

6

ECF No. 23-22.

7

ECF No. 24.
2

App.0004
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 3 of 40

1 district court denied the petition, and Dominguez appealed. 8 While his appeal was pending,
2 Dominguez filed a second state habeas petition, which the state district court also denied. 9
3

On July 25, 2012, the Nevada Supreme Court affirmed the denial of Dominguez’s first

4 state habeas petition, and remittitur issued on August 20, 2012. 10 Approximately six months
5 later, the Nevada Supreme Court affirmed the denial of his second state habeas petition as
6 procedurally barred. 11
7

Dominguez dispatched his federal habeas petition for filing on or about September 6,

8 2012. 12 Dominguez filed a counseled, amended petition on September 26, 2013. 13 He then
9 moved for leave to conduct discovery and for a court order to obtain documents, and the
10 respondents moved to dismiss Dominguez’s amended petition. 14 I denied the respondents’
11 motion to dismiss without prejudice and granted Dominguez’s motion for leave to conduct
12 discovery. 15
13

Following the completion of discovery, Dominguez filed a third state habeas petition,

14 which was denied as untimely, successive, and procedurally barred by the state district court. 16
15 The Nevada Supreme Court affirmed the denial, 17 and remittitur issued on July 19, 2016. 18
16
17
18
19
20
21
22
23

8

ECF Nos. 24-4, 24-6.

9

ECF Nos. 24-10, 24-15.

10

ECF Nos. 24-23, 24-24.

11

ECF No. 24-25.

12

ECF No. 1.

13

ECF No. 18.

14

ECF Nos. 26, 27.

15

ECF No. 37 at 6.

16

ECF Nos. 59-1, 59-8.

17

ECF No. 59-13.

18

ECF No. 59-15.
3

App.0005
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 4 of 40

1

After seeking leave, Dominguez filed a counseled, second-amended federal petition and

2 then a third-amended federal petition. 19 The respondents again moved for dismissal. 20 I granted
3 the motion to dismiss in part, dismissing Ground 6. 21 The respondents answered the remaining
4 grounds in Dominguez’s third-amended petition on May 16, 2018, 22 and Dominguez replied on
5 November 28, 2018. 23
6

In Dominguez’s remaining grounds for relief, he alleges the following violations of his

7 federal constitutional rights:
8
9

1.

The evidence at trial was insufficient to support his convictions.

2.

Trial counsel failed to move to dismiss the murder and conspiracy to
commit murder charges.

3.

Trial counsel failed to investigate the State’s witnesses.

4.

Trial counsel failed to object to the reasonable-doubt jury instruction

5.

There were cumulative errors made by his trial counsel warranting relief. 24

10
11
12
13
14

Discussion

15 A.

Legal standards

16

1.

17

If a state court has adjudicated a habeas corpus claim on its merits, a federal district court

Review under the Antiterrorism and Effective Death Penalty Act (AEDPA)

18 may only grant habeas relief with respect to that claim if the state court’s adjudication “resulted
19
20
21
22
23

19

ECF Nos. 50, 61.

20

ECF No. 63.

21

ECF No. 70.

22

ECF No. 78.

23

ECF No. 85.

24

ECF No. 61.
4

App.0006
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 5 of 40

1 in a decision that was contrary to, or involved an unreasonable application of, clearly established
2 Federal law, as determined by the Supreme Court of the United States” or “resulted in a decision
3 that was based on an unreasonable determination of the facts in light of the evidence presented in
4 the State court proceeding.” 25 A state court acts contrary to clearly established federal law if it
5 applies a rule contradicting the relevant holdings or reaches a different conclusion on materially
6 indistinguishable facts. 26 And a state court unreasonably applies clearly established federal law
7 if it engages in an objectively unreasonable application of the correct governing legal rule to the
8 facts at hand. 27 Section 2254 does not, however, “require state courts to extend” Supreme Court
9 precedent “to a new context where it should apply” or “license federal courts to treat the failure
10 to do so as error.” 28 The “objectively unreasonable” standard is difficult to satisfy; 29 “even
11 ‘clear error’ will not suffice.” 30
12

Habeas relief may only be granted if “there is no possibility [that] fairminded jurists

13 could disagree that the state court’s decision conflicts with [the Supreme Court’s] precedents.” 31
14 As “a condition for obtaining habeas relief,” a petitioner must show that the state-court decision
15 “was so lacking in justification that there was an error well understood and comprehended in
16
17
18
19
20
21

25

28 U.S.C. § 2254(d).

26

Price v. Vincent, 538 U.S. 634, 640 (2003).

27

White v. Woodall, 134 S. Ct. 1697, 1705–07 (2014).

28

Id. at 1705–06.

29

Metrish v. Lancaster, 569 U.S. 351, 357–58 (2013).

30

Wood v. McDonald, 135 S. Ct. 1372, 1376 (2015) (per curiam) (citation omitted); see also
22 Schriro v. Landrigan, 550 U.S. 465, 473 (2007) (“The question . . . is not whether a federal court
believes the state court’s determination was incorrect but whether that determination was
23 unreasonable—a substantially higher threshold.”).
31

Harrington v. Richter, 562 U.S. 86, 102 (2011).
5

App.0007
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 6 of 40

1 existing law beyond any possibility of fairminded disagreement.” 32 “[S]o long as ‘fairminded
2 jurists could disagree’ on the correctness of the state court’s decision,” habeas relief under
3 Section 2254(d) is precluded. 33 AEDPA “thus imposes a ‘highly deferential standard for
4 evaluating state-court ruling,’ . . . and ‘demands that state-court decisions be given the benefit of
5 the doubt.’” 34
6

If a federal district court finds that the state court committed an error under § 2254, the

7 district court must then review the claim de novo. 35 The petitioner bears the burden of proving
8 by a preponderance of the evidence that he is entitled to habeas relief, 36 but state-court factual
9 findings are presumed correct unless rebutted by clear and convincing evidence. 37
10

2.

11

The right to counsel embodied in the Sixth Amendment provides “the right to the

Standard for federal habeas review of an ineffective-assistance claim

12 effective assistance of counsel.” 38 Counsel can “deprive a defendant of the right to effective
13 assistance[] simply by failing to render ‘adequate legal assistance[.]’” 39 In the hallmark case of
14 Strickland v. Washington, the United States Supreme Court held that an ineffective-assistance
15 claim requires a petitioner to show that: (1) his counsel’s representation fell below an objective
16
17

32

Id. at 103.

18

33

Id. at 101.

34

Renico v. Lett, 559 U.S. 766, 773 (2010) (citations omitted).

19

35

Frantz v. Hazey, 533 F.3d 724, 735 (9th Cir. 2008) (en banc) (“[I]t is now clear both that we
may
not grant habeas relief simply because of § 2254(d)(1) error and that, if there is such error,
20
we must decide the habeas petition by considering de novo the constitutional issues raised.”).
21 36 Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
22

37

28 U.S.C. § 2254(e)(1).

38

Strickland v. Washington, 466 U.S. 668, 686 (1984) (quoting McMann v. Richardson, 397
23 U.S. 759, 771 n.14 (1970)).
39

Id. (quoting Cuyler v. Sullivan, 446 U.S. 335, 335–36 (1980)).
6

App.0008
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 7 of 40

1 standard of reasonableness under prevailing professional norms in light of all of the
2 circumstances of the particular case; 40 and (2) it is reasonably probable that, but for counsel’s
3 errors, the result of the proceeding would have been different. 41
4

A reasonable probability is “probability sufficient to undermine confidence in the

5 outcome.” 42 Any review of the attorney’s performance must be “highly deferential” and must
6 adopt counsel’s perspective at the time of the challenged conduct so as to avoid the distorting
7 effects of hindsight. 43 “The question is whether an attorney’s representation amounted to
8 incompetence under prevailing professional norms, not whether it deviated from best practice or
9 most common custom.” 44 The burden is on the petitioner to overcome the presumption that
10 counsel made sound trial-strategy decisions. 45
11

The United States Supreme Court has described federal review of a state supreme court’s

12 decision on an ineffective-assistance claim as “doubly deferential.” 46 So, I “take a ‘highly
13 deferential’ look at counsel’s performance . . . through the ‘deferential lens of § 2254(d).’” 47
14 And I consider only the record that was before the state court that adjudicated the claim on its
15 merits. 48
16
17
18
19
20
21
22
23

40

Id. at 690.

41

Id. at 694.

42

Williams v. Taylor, 529 U.S. 362, 390–91 (2000).

43

Strickland, 466 U.S. at 689.

44

Harrington, 562 U.S. at 104.

45

Id.

46

Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 556 U.S. 111, 123 (2009)).

47

Id.

48

Id. at 181–84.
7

App.0009
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 8 of 40

1 B.

Evaluating Dominguez’s remaining claims

2

Dominguez asserts that there was insufficient evidence to support his convictions and his

3 trial counsel was ineffective. I now address these claims in the order in which they were made. 49
4

1.

5

In Ground 1, Dominguez asserts that he was denied his due-process rights under the Fifth

Ground 1

6 and Fourteenth Amendments because the evidence at his trial was legally insufficient to support
7 his murder, robbery, and conspiracy-to-commit-robbery convictions. 50 Dominguez contends
8 with regard to the murder conviction that Friedman’s surgery was an intervening event that
9 proximately caused his death—not the stabbing—and that, with regard to the conspiracy
10 conviction, the evidence was far more consistent with an agreement to physically attack
11
12
13
49

Dominguez argues that his claims should be reviewed de novo because 28 U.S.C. § 2254(d) is
14 unconstitutional. ECF No. 85 at 15–21. Dominguez argues that: (1) 28 U.S.C. § 2254(d)
“violates § 1 of the Fourteenth Amendment and the Due Process Clause of the Fifth
15 Amendment[] by depriving citizens in state custody of their fundamental right to meaningful
federal review of the federal legality of their state detention”; (2) 28 U.S.C. § 2254(d)
16 “unlawfully suspends the writ of habeas corpus in violation of Article I, § 9, cl. 2”; and (3) 28
U.S.C. § 2254(d) “unlawfully impinge[s] on the judicial power vested exclusively in the
17 judiciary by Article III of the Constitution.” Id. at 15. He admits that his latter two arguments
have been rejected by the Ninth Circuit, id. at 16 (citing Crater v. Galaza, 491 F.3d 1119 (9th
18 Cir. 2007)), so I decline to consider them because I am bound by that authority. With regard to
his first argument—that 28 U.S.C. § 2254(d) violates the Fourteenth and Fifth Amendments—
19 Dominguez argues that 28 U.S.C. § 2254(d) requires federal courts to defer to the state court’s
interpretation of federal law, meaning that in cases in which a state imprisonment violates the
20 federal constitution, the federal court is often required to “stay its hand and deny relief.” Id. at
20. I find that this argument lacks merit. Although not discussed in the context of the
21 Fourteenth and Fifth Amendments, the Ninth Circuit has stated generally that “[t]he
constitutional foundation of § 2254(d)(1) is solidified by the Supreme Court’s repeated
22 application of the statute.” Crater, 491 F.3d at 1129. Further, none of Dominguez’s claims
violate the federal constitution; therefore, Dominguez is not being denied relief solely due to the
23 deference that is given to the state court under 28 U.S.C. § 2254(d).
50

ECF No. 61 at 9.
8

App.0010
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 9 of 40

1 Friedman than to rob him. 51 The Nevada Supreme Court rejected these theories in Dominguez’s
2 appeal of his judgment of conviction based on the evidence:
3

First, Dominguez argues that his murder conviction must be
reversed because the victim died of intervening medical error, not
of the stab wounds that placed him in the hospital. We reject that
contention. The victim reported in his 9-1-1 call that he had been
attacked by a group of individuals who were waiting for him inside
when he returned home. Dominguez admitted to being part of that
group, though he asserted that he was there to talk to the victim
and protect him from the other three attackers who stabbed him,
one of whom was Dominguez’s brother. The victim died after
exploratory surgery. A medical examiner testified that the victim’s
cause and manner of death were homicide due to multiple stab
wounds. We conclude that because these injuries were a
“substantial factor” in the victim’s death, Dominguez cannot
escape liability for murder. Lay v. State, 110 Nev. 1189, 1192–93,
886 P.2d 448, 450 (1994).

4
5
6
7
8
9
10
11

Second, Dominguez claims that there is insufficient evidence to
support his convictions for robbery with the use of a deadly
weapon and conspiracy to commit robbery. The jury heard
evidence that Dominguez conspired with the victim’s girlfriend,
Liliani Tomines, to murder the victim, including (1) their initial
denials that they knew each other; (2) their subsequent
confrontation with 112 phone calls made between them in a period
of a few weeks, including on the night of the murder; (3) evidence
that Tomines let the group that attacked the victim into the house
for the purpose of lying in wait for the victim; (4) Dominguez’s
admission of involvement; and (5) the victim’s exclamation that
the group that attacked him had stolen his wallet. A rational juror,
looking at Tomines’[s] and Dominguez’s coordinated conduct,
could have inferred the existence of an agreement to rob the victim
as part of the plan to murder him and could have therefore found
beyond a reasonable doubt that Dominguez conspired to commit,
and did in fact commit, robbery with the use of a deadly weapon.
See Origel-Candido v. State, 114 Nev. 378, 381, 956 P.2d 1378,
1380 (1998); Jackson v. Virginia, 443 U.S. 307, 319 (1979); NRS
200.380(1); NRS 193.165; NRS 199.480. Further, we reject
Dominguez’s assertion that because his brother, a co-conspirator
tried separately, was acquitted of robbery and conspiracy to
commit robbery, Dominguez’s convictions must be reversed as

12
13
14
15
16
17
18
19
20
21
22
23
51

Id. at 11, 13.
9

App.0011
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 10 of 40

1

well. See Hilt v. State, 91 Nev. 654, 662, 541 P.2d 645, 650
(1975). 52

2
3

I find that this ruling of the Nevada Supreme Court was reasonable. 53 “[T]he Due

4 Process Clause protects the accused against conviction except upon proof beyond a reasonable
5 doubt of every fact necessary to constitute the crime with which he is charged.” 54 A federal
6 habeas petitioner “faces a heavy burden when challenging the sufficiency of the evidence used to
7 obtain a state conviction on federal due process grounds.” 55 As the United States Supreme Court
8 held in Jackson v. Virginia, on direct review of a sufficiency-of-the-evidence claim, a state court
9 must determine whether “any rational trier of fact could have found the essential elements of the
10 crime beyond a reasonable doubt.” 56 The evidence must be viewed “in the light most favorable
11 to the prosecution.” 57 Federal habeas relief is available only if the state-court determination that
12
13
14
52

15
16
17
18
19
20
21
22
23

ECF No. 23-21 at 2–3.

53

Dominguez argues that I should review this ground de novo because the Nevada Supreme
Court erroneously determined that Friedman’s injuries were a “substantial factor” in his death
and failed to discuss whether the state adduced sufficient evidence at trial to allow any rational
juror to find causation beyond a reasonable doubt. ECF No. 85 at 29-30. Dominguez’s first
assertion lacks merit—as I will discuss, the Nevada Supreme Court did not erroneously
determine that Friedman’s injuries were a “substantial factor” in his death. Regarding
Dominguez’s second assertion, it is true that the Nevada Supreme Court only cited Jackson v.
Virginia, 443 U.S. 307, 319 (1979), which discusses reasonable doubt in sufficiency-of-theevidence claims in the context of Dominguez’s robbery and conspiracy to commit robbery
convictions. However, that does not imply that the Nevada Supreme Court failed to apply this
standard to the evidence presented on the murder conviction. So I decline to review Ground 1 de
novo.
54

In re Winship, 397 U.S. 358, 364 (1970).

55

Juan H. v. Allen, 408 F.3d 1262, 1274 (9th Cir. 2005).

56

Jackson v. Virginia, 443 U.S. 307, 319 (1979).

57

See id.
10

App.0012
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 11 of 40

1 the evidence was sufficient to support a conviction was an “objectively unreasonable”
2 application of Jackson. 58
3

a.

4

Relevant evidence

Brian Ward, a coworker of Mark Friedman, testified that Friedman gave him a ride home

5 from work on January 30, 2007, at approximately 3:10 a.m. 59 When Ward opened Friedman’s
6 truck’s passenger door to get into the vehicle, Friedman was talking on his cell phone, and Ward
7 heard Friedman say, “‘I’ll be home in 30 minutes. Stop calling me.’” 60 It was later determined
8 that Friedman was speaking to his girlfriend and business partner, Lilani Tomines, during that
9 telephone call. 61
10

Approximately thirty minutes later, Friedman made a telephone call to 9-1-1, explaining

11 that, after coming home from work, numerous individuals, who Friedman described as being
12 Hispanic, “hit [him] when [he] came in the door.” 62 Friedman also explained that the individuals
13 kicked him in the “head like seven or eight times,” took his “wallet and [his] phone and
14 everything,” and then “put [him] in the garage.” 63 During Friedman’s 9-1-1 telephone call,
15 Tomines came into the garage and indicated that she had been sleeping and was unaware of what
16 had happened to Friedman. 64
17
18
19
20
21
22
23

58

See Juan H., 408 F.3d at 1275 n.13.

59

ECF No. 22-3 at 55, 58.

60

Id. at 59.

61

ECF No. 23 at 78.

62

ECF No. 23 at 60, 63.

63

Id.

64

Id. at 62, 67.
11

App.0013
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 12 of 40

1

Officer Garth Findley testified that he was the first officer to respond to a dispatch call

2 for a robbery at Friedmann’s residence at 3:47 a.m. on January 30, 2007. 65 When Officer
3 Findley approached the house, he saw Friedman sitting in a chair in his garage with Tomines
4 standing next to him. 66 Friedman “had blood all over him” and told Officer Findley, consistent
5 with his 9-1-1 call, that he “parked his truck on the street, walked . . . through the garage[,] . . .
6 and once he entered . . . the door that leads into the house, . . . he was jumped by . . .
7 approximately five Hispanic males and one Hispanic female.” 67 Friedman also explained that
8 the individuals “beat him with an unknown object and . . . robbed him, taking his keys and
9 wallet.” 68 The paramedics arrived approximately five minutes after Officer Findley, and Officer
10 Findley did not render any first aid in the meantime. 69
11

Officer Findley spoke with Tomines briefly, and Tomines explained that she arrived at

12 Friedman’s house at approximately 1:00 a.m. on January 30, 2007, and went to sleep. 70 Tomines
13 then explained—inconsistent with what was heard on the 9-1-1 recording—that she awoke at
14 approximately 3:30 a.m., and when she noticed that Friedman was not home, she called his
15 cellular telephone. 71 Friedman “answered his cell phone and stated that he[ was] already home,
16
17
18
19
20
21
22
23

65

ECF No. 22-3 at 37–39.

66

Id. at 41–42, 47.

67

Id. at 43–44.

68

Id. at 44.

69

Id. at 53.

70

Id. at 46.

71

Id. at 47.
12

App.0014
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 13 of 40

1 he [was] in the hallway, and that’s when she went out and saw him.” 72 Friedman then told
2 Tomines that he had been jumped by individuals who possibly followed him home. 73
3

Louise Renhard, a senior crime-scene analyst, testified that she also responded to

4 Friedman’s residence on January 30, 2007. 74 Renhard testified that the front door of the
5 residence was opened inward, that the “metal grated security door on the exterior” of the front
6 door was double locked, that the door from the inside of the garage into the laundry room area of
7 the residence was shut but not locked, and that except for the “garage bay door[,] . . . all the rest
8 of the [doors and windows] were secured, closed and locked.” 75 Renhard explained that there
9 was no sign of forced entry anywhere in the residence. 76 Although Friedman told the 9-1-1
10 operator that the individuals had taken his keys, Renhard found Friedman’s keys in his shirt
11 pocket. 77 She, however, did not recover his wallet. 78 Renhard testified that she “believed from
12 what [she] w[as] told by medical personnel that the victim was going to live.” 79
13

Detective Gordon Martines, a robbery detective, testified that he too responded to

14 Friedman’s residence on January 30, 2007. 80 Detective Martines also did not see any signs of
15 forced entry anywhere in the residence, and he testified that the interior of the residence “didn’t
16
17
18
19
20
21
22
23

72

Id.

73

Id.

74

ECF No. 22-4 at 22, 24.

75

Id. at 34-36.

76

Id. at 37.

77

Id. at 74.

78

Id. at 75.

79

Id.

80

ECF No. 22-4 at 79–80.
13

App.0015
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 14 of 40

1 appear to be disturbed in any way.” 81 Detective Martines interviewed Tomines at the scene and
2 testified that “she wasn’t all that upset about what had happened” and “appeared to be rather
3 detached and cold toward the circumstances that had occurred.” 82 Detective Martines did not
4 interview Friedman because he was in surgery and then later passed away. 83 Detective Martines
5 explained that Friedman’s injuries were “a little excessive” for a robbery. 84
6

Dr. Gary Telgenhoff, a medical examiner with the Clark County Coroner’s Office,

7 testified that while Dr. Kubiczek performed Friedman’s autopsy, he conducted an autopsy report
8 of Friedman, which included reviewing Friedman’s hospital medical reports. 85 Friedman was
9 stabbed three times “in the vicinity of the abdomen,” had blunt force trauma injuries to his head,
10 had defensive wounds on his hands, and was in the hospital for nine days prior to his death. 86
11 After Friedman’s admission to the hospital, surgeons did “an exploratory laparotomy where they
12 want to look and make sure no vital organs have been pierced by whatever caused the stabs.” 87
13 The laparotomy, which Dr. Telgenhoff clarified “wasn’t an elective surgery,” showed “no direct
14 internal injury, but [the procedure was needed] to be sure.” 88 Dr. Telgenhoff explained that
15 “because [Friedman] was not ideal for a surgical candidate,” he “had some episodes of throwing
16
17
18
19
20
21
22
23

81

Id. at 81.

82

Id. at 84.

83

Id. at 88.

84

Id. at 89.

85

ECF No. 23 at 6, 10, 12.

86

Id. at 10, 18, 24.

87

Id. at 11.

88

Id.
14

App.0016
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 15 of 40

1 up, vomiting” during the procedure. 89 Friedman ultimately fatally suffered from asphyxiation
2 from aspiration pneumonia, which is a risk faced by anyone who gets a tracheotomy. 90
3

Dr. Telgenhoff then testified extensively about the cause of Friedman’s death. Dr.

4 Telgenhoff explained that, in his opinion, Friedman aspirated and died “from complications of
5 treatment for those stab wounds.” 91 Dr. Telgenhoff further explained that “[t]he proximal cause
6 of death, the cause that brought him to his death[, was] multiple sharp force injuries due to
7 assault.” 92 Dr. Telgenhoff testified that the medical definition of “proximate causation” means
8 “the underlying condition, the underlying episode that brought about the death.” 93 Dr.
9 Telgenhoff determined that the manner of death was a homicide because, “but for being
10 assaulted[, Friedman] wouldn’t have been at the hospital and died in the manner he did.” 94 Dr.
11 Telgenhoff then clarified:
12

one could easily say that, well, pneumonia killed him, and ignore
the rest. That wouldn’t be quite accurate. One could say that the
stab wounds killed him, but we know that they weren’t themselves
lethal, so that wouldn’t be quite correct. But the underlying
process leading to the death was the attack and that’s all there is to
it, the way I see it. 95

13
14
15

16 Dr. Telgenhoff did concede that “[i]f it were not for the need for emergent surgery and the
17 complications from that emergent surgery, [Friedman] might have lived.” 96
18
19
20
21
22
23

89

Id. at 11–12.

90

Id. at 28, 36.

91

Id. at 12.

92

Id. at 28.

93

Id. at 35.

94

Id. at 28.

95

Id. at 35.

96

Id. at 29.
15

App.0017
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 16 of 40

1

Detective Dolphis Boucher, a homicide detective, testified that he took over the

2 investigation following Friedman’s death “because his death was a result of the injuries.” 97
3 Detective Boucher went to Friedman’s residence on February 11, 2007, to observe the crime
4 scene. 98 Based on the blood and other evidence, Detective Boucher explained that Friedman was
5 attacked in the laundry room, just inside from the garage, and that the attackers likely left the
6 residence through the front door, not the garage, meaning that someone locked the door from the
7 inside after they left. 99
8

After investigating Tomines’s telephone records, Detective Boucher learned that Tomines

9 had spoken with Dominguez on the telephone at least three times on the night of Friedman’s
10 attack: 9:00 p.m. on January 29, 2007; 12:26 a.m. on January 30, 2007; and 2:10 a.m. on January
11 30, 2007. 100 According to cell-tower records, Dominguez was near his home during these first
12 two telephone calls but was near Friedman’s home during the final call. 101 Tomines also spoke
13 with Dominguez at around 9:30 a.m. on January 30, 2007. 102 Detective Boucher explained that
14 Tomines’s telephone records established 112 telephone calls between Tomines and Dominguez
15 from December 19, 2006, to February 1, 2007. 103
16

Detective Boucher testified that a ledger was found on Friedman’s computer showing that

17 Tomines owed him approximately $200,000. 104 Because this amount was not secured by a
18
19
20
21
22
23

97

ECF No. 23 at 37–39.

98

Id. at 42.

99

Id. at 48–51.

100

Id. at 81–83.

101

Id. at 89.

102

Id. at 84, 91.

103

Id. at 93.

104

ECF No. 23-4 at 51, 54.
16

App.0018
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 17 of 40

1 formal loan, meaning that there would be no evidence that Tomines owed these amounts,
2 Detective Boucher testified about a possible motive for Tomines to have been involved in
3 Friedman’s attack: “[i]f he’s dead, she doesn’t have to pay him back.” 105 When Detective
4 Boucher interviewed Tomines and asked her whether she owed Friedman money, she responded,
5 “[n]ot really, not a lot of money.” 106 Detective Boucher also testified that Tomines wrote
6 fraudulent checks from Friedman’s account, forging his signature, and attempted to cash those
7 checks the afternoon of January 29, 2007, and the afternoon of January 30, 2007. 107 Detective
8 Boucher further explained that “there was a [notarized] document in [Friedman’s] safety deposit
9 box” that showed that “he was a part owner of [Tomines’] business.” 108 Tomines denied that she
10 and Friedman were partners, claiming that she solely owned her used-car business. 109
11

Detective Boucher interviewed Dominguez about his involvement in the events that took

12 place on January 30, 2007. 110 Dominguez said that he and a lifelong friend, Saul, whose last
13 name and telephone number were unknown to Dominguez, were trying to buy a car from
14 Tomines. 111 Dominguez stated that he only talked to Tomines two or three times and that Saul
15 must have had his cellular telephone on the night that Friedman got stabbed. 112 Later, after
16 Dominguez was arrested, Boucher conducted a second interview with him 113 in which
17
18
19
20
21
22
23

105

Id. at 54, 72.

106

ECF No. 23 at 98–99, 111.

107

Id. at 93-95.

108

ECF No. 23-4 at 71.

109

ECF No. 23 at 111–12, 134.

110

Id. at 139–40.

111

Id. at 142–43.

112

Id. at 144.

113

Dominguez asserts that his police-interview statements were involuntary because the
detectives admittedly made fraudulent statements to him in order to pressure him into confessing,
17

App.0019
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 18 of 40

1 Dominguez admitted that he was at Friedman’s house the night Friedman was attacked; however,
2 Dominguez explained that “he was sort [of] blocking Mr. Friedman from the other attackers, and
3 he was trying to prevent him from getting hurt.” 114 Dominguez further explained that he was at
4 Friedman’s residence at 3:30 a.m. on January 30, 2007, because he “was supposed to go there to
5 talk to” Friedman on Tomines’s behalf. 115 Dominguez elaborated that Friedman “was being
6 mean to [Tomines], and she was going to give him a deal on a car.” 116 Dominguez also
7 explained that Tomines had told him that she had problems with Friedman: “This guy have my
8 truck, this guy live in my home and, and no pay me nothing.” 117
Aaron Friedman, Friedman’s son, testified that his father’s wallet was never found. 118

9

10 Similarly, Detective Boucher testified that Friedman’s wallet was never located and there was no
11 activity on Friedman’s credit cards. 119
12
13
14
15
16
17 so I should not consider them in my analysis of Ground 1. See ECF No. 61 at 13. Even if
testimony has been admitted in error, however—which does not appear to be the case here—the
18 Jackson analysis must be applied to all the evidence actually admitted by the state district court.
McDaniel v. Brown, 558 U.S. 120, 131 (2010) (explaining that “a reviewing court must consider
19 all of the evidence admitted by the trial court, regardless of whether the evidence was admitted
erroneously” (internal quotation marks omitted)).
20 114 ECF No. 23-4 at 9.
21
22
23

115

Id. at 12–13.

116

Id. at 47.

117

ECF No. 20 at 17.

118

ECF No. 22-4 at 108.

119

ECF No. 23 at 55–56.
18

App.0020
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 19 of 40

Dominguez’s brother, Ivan Dominguez, 120 was later arrested after his fingerprint was

1

2 matched to a print found at Friedman’s residence. 121
3

b.

4

Relevant statutes and legal theories

Dominguez only disputes the sufficiency of the evidence related to his first-murder,

5 conspiracy to commit robbery, and robbery convictions. 122 Sufficiency-of-the-evidence claims
6 are judged by the elements defined by state law. 123 Nevada law defines murder as “the unlawful
7 killing of a human being . . . [w]ith malice aforethought, either express or implied.” 124 As it
8 relates to the facts of this case, first-degree murder is murder that is “(a) [p]erpetrated by means
9 of poison, lying in wait or torture, or by any other kind of willful, deliberate and premeditated
10 killing” or “(b) [c]ommitted in the perpetration or attempted perpetration of . . . robbery,
11 burglary, [or] invasion of the home.” 125 Nevada law defined robbery as “the unlawful taking of
12 personal property from the person of another, or in his presence, against his will, by means of
13 force or violence or fear of injury, immediate or future, to his person or property.” 126 “A taking
14 is by means of force or fear if force or fear is used to: (a) Obtain or retain possession of the
15 property; (b) Prevent or overcome resistance to the taking; or (c) Facilitate escape.” 127
16
120

Dominguez notes that Ivan Dominguez was acquitted of robbery and conspiracy to commit
robbery. ECF No. 61 at 14 (citing ECF No. 23-17). Because inconsistent jury verdicts do not
render them erroneous, I note this fact but decline to grant Dominguez relief on this fact alone.
18
Standefer v. United States, 447 U.S. 10, 25 (1980) (“While symmetry of results may be
intellectually satisfying, it is not required.”).
19
121
ECF No. 23-4 at 19–20, 22.
20 122 ECF No. 61 at 9.
17

21
22
23

123

Jackson, 443 U.S. at 324 n.16.

124

Nev. Rev. Stat. § 200.010(1).

125

Nev. Rev. Stat. § 200.030(1)(a), (b).

126

Nev. Rev. Stat. § 200.380(1).

127

Id.
19

App.0021
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 20 of 40

1 Regarding conspiracy, Nevada law provides that “whenever two or more persons conspire to
2 commit . . . robbery . . . each person is guilty of a category B felony.” 128
3

The jury was instructed that they could find Dominguez guilty of robbery and murder

4 under one of three theories of liability: Dominguez directly committed the crime; Dominguez
5 and Tomines aided and abetted one another in the commission of the crime with the intent to
6 commit the crime; or Dominguez and Tomines engaged in a conspiracy to commit the crime. 129
7

c.

8

Challenged counts of conviction
i.

9

Murder

Dominguez challenges the sufficiency of the evidence for his first-degree murder

10 conviction based on causation of Friedman’s death. 130 The Nevada Supreme Court has
11 explained that “a criminal defendant can only be exculpated where, due to a superseding cause,
12 he was in no way the proximate cause of the result” and “[a]ny intervening cause must,
13 effectively, break the chain of causation.” 131 “Thus, an intervening cause must be a superseding
14 cause, or the sole cause of the injury in order to completely excuse the prior act.” 132 In Lay v.
15 State, the Nevada Supreme Court held that “[a] defendant will not be relieved of criminal
16 liability for murder when his action was a substantial factor in bringing about the death of the
17 victim.” 133 Explaining this rule in the context of Lay, the Court stated that “[e]ven if the direct
18
19
20
21

128

Nev. Rev. Stat. § 199.480(1).

129

ECF No. 23-2 at 5–6.

130

ECF No. 61 at 11.

131

22

Etcheverry v. State, 821 P.2d 350, 351 (Nev. 1991) (internal quotation marks and citations
omitted).

23

132

Id.

133

Lay v. State, 886 P.2d 448, 450 (Nev. 1994).
20

App.0022
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 21 of 40

1 cause of [the victim’s] death had been negligent medical care, the gunshot wound that
2 necessitated the medical care was a substantial factor in bringing about [the victim’s] death.” 134
3

Here, Dr. Telgenhoff testified that Friedman’s laparotomy was not elective—it was

4 necessary to ensure that Friedman had not suffered any direct internal injuries. 135 After the
5 laparotomy, in which Friedman aspirated vomit, he died from what Dr. Telgenhoff testified were
6 “complications of treatment for [his] stab wounds.” 136 Dr. Telegenhoff also testified that “the
7 cause that brought him to his death [was] multiple sharp force injuries” and that “the underlying
8 process leading to the death was the attack.” 137 Accordingly, although Dr. Telgenhoff conceded
9 that “[i]f it were not for the need for emergent surgery and the complications from that emergent
10 surgery, [Friedman] might have lived,” 138 the Nevada Supreme Court reasonably determined that
11 the stabbing “was a substantial factor in bringing about the death of” Friedman. 139 Indeed,
12 similar to the facts in Lay, even though the direct cause of Friedman’s death was the
13 complications he suffered as a result of the laparotomy, the stab wounds that necessitated that
14 medical care were a substantial factor in bringing about his death. 140
15

Outside the issue of causation, as the Nevada Supreme Court reasonably noted,

16 Dominguez admitted to being present in Friedman’s residence when the attack took place. 141
17 Dominguez asserted that he was only there to speak with Friedman and that he tried to protect
18
19
20
21
22
23

134

Id.

135

ECF No. 23 at 11.

136

Id. at 12.

137

Id. at 28, 35.

138

Id. at 29.

139

Lay, 886 P.2d at 450.

140

Id.

141

ECF No. 23-4 at 9.
21

App.0023
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 22 of 40

1 Friedman from the attackers, one of whom was Dominguez’s brother. 142 The jury disbelieved
2 this explanation. Because evidence is viewed “in the light most favorable to the prosecution,” 143
3 the evidence in this case shows that the murder of Friedman was either willful, deliberate, and
4 premeditated, or committed in the perpetration of a robbery or home invasion. 144 Therefore,
5 based on this evidence, a rational trier of fact could have found beyond a reasonable doubt that
6 Dominguez—either directly or through aiding and abetting or through a conspiracy—committed
7 first-degree murder, such that the Nevada Supreme Court’s ruling that there was sufficient
8 evidence to convict Dominguez of murder was reasonable. 145
9

ii.

Robbery

Friedman told the 9-1-1 operator that the individuals who attacked him took his wallet. 146

10

11 Detective Boucher and Friedman’s son testified that Friedman’s wallet was never found. 147 This
12 evidence demonstrates that Dominguez, who admitted to being at Friedman’s residence during
13 the attack, either directly or through aiding and abetting or through a conspiracy, unlawfully took
14 Friedman’s personal property by means of violence against Friedman’s will. 148 And based on
15 this evidence, a rational trier of fact could have found beyond a reasonable doubt that
16
17
18
19
20
21
22
23

142

Id. at 9, 12–13, 19–20, 22.

143

Jackson, 443 U.S. at 319.

144

Nev. Rev. Stat. § 200.030(1)(a), (b).

145

In re Winship, 397 U.S. at 364; Juan H., 408 F.3d at 1274; Jackson, 443 U.S. at 319; Nev.
Rev. Stat. § 200.030.

146

ECF No. 23 at 60, 63.

147

ECF Nos. 22-4 at 108; 23 at 55–56.

148

Nev. Rev. Stat. § 200.380(1).
22

App.0024
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 23 of 40

1 Dominguez committed robbery, making the Nevada Supreme Court’s ruling that there was
2 sufficient evidence to convict Dominguez of robbery reasonable. 149
3

iii.

4

Conspiracy to commit robbery

The Nevada Supreme Court has held that “conspiracy is committed upon reaching the

5 unlawful agreement,” 150 and “[c]onspiracy is seldom susceptible of direct proof and is usually
6 established by inference from the conduct of the parties.” 151 Here, the evidence demonstrated
7 that Tomines called Friedman on his way home from work to determine what time he would be
8 home; that Tomines’s story to Officer Findley was inconsistent with the 9-1-1 tape recording in
9 that she told Officer Findley that she saw and spoke with Friedman before he called 9-1-1; that
10 there was no sign of forced entry into Friedman’s residence; that someone locked the front door
11 from the inside after the attackers left; that Tomines spoke with Dominguez an aggregate of 112
12 times during the six weeks preceding the attack and robbery, including three times the night of
13 the attack and robbery; and that Dominguez admitted that he was at Friedman’s residence the
14 night of the attack at the request of Tomines. 152 This evidence, along with the evidence that
15 Friedman was robbed of his wallet, demonstrates that Dominguez and Tomines had an unlawful
16 agreement to rob Friedman. 153
17
18
19
20

149

21

150

22
23

In re Winship, 397 U.S. at 364; Juan H., 408 F.3d at 1274; Jackson, 443 U.S. at 319; Nev.
Rev. Stat. § 200.380(1).
Nunnery v. Eighth Judicial Dist. Ct., 186 P.3d 886, 888 (Nev. 2008).

151

Gaitor v. State, 801 P.2d 1372, 1376 n.1 (1990) (internal quotation marks omitted), overruled
on other grounds by Barone v. State, 866 P.2d 291, 292 (Nev. 1993).

152

ECF Nos. 22-3 at 47, 59; 22-4 at 37; 23 at 48–51, 62, 67, 78, 81–83, 93; 23-4 at 9, 12–13.

153

Nunnery, 186 P.3d at 888.
23

App.0025
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 24 of 40

1

Dominguez argues that any agreement established between him and Tomines was an

2 agreement to physically attack Friedman, not to rob him. 154 However, because Friedman’s
3 wallet was taken with violence and because a conspiracy to rob can be inferred from the parties’
4 conduct, 155 a rational trier of fact could have found beyond a reasonable doubt that Dominguez
5 conspired to commit robbery. The Nevada Supreme Court’s ruling that there was sufficient
6 evidence to convict Dominguez of conspiracy to commit robbery was thus reasonable. 156
7

Dominguez is denied federal habeas relief for Ground One.

8

2.

9

In Ground 2, Dominguez alleges that his federal constitutional rights were violated when

Ground 2

10 his trial counsel failed to move to dismiss his murder and conspiracy-to-commit-murder changes
11 because Friedman’s surgery was an intervening cause of his death. 157 Dominguez elaborates
12 that, because the coroner’s testimony and his autopsy report were unreliable, his trial counsel
13 should have obtained the relevant medical records and consulted with an expert who could have
14 definitively established that Friedman’s surgery was unnecessary, thus providing a basis for a
15 motion to dismiss. 158
16
17
18
19
20
21
22
23

154

ECF No. 61 at 13.

155

Gaitor, 801 P.2d at 1376 n.1.

156

In re Winship, 397 U.S. at 364; Juan H., 408 F.3d at 1274; Jackson, 443 U.S. at 319; Nev.
Rev. Stat. § 199.480(1).

157

ECF No. 61 at 16–17.

158

Id. at 18–19.
24

App.0026
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 25 of 40

1

a.

Ground 2 was not adjudicated on its merits in state court.

Dominguez included this claim in his first state habeas petition. 159 In Dominguez’s

2

3 appeal of the denial of his first state habeas petition, the Nevada Supreme Court rejected this
4 claim because he could not establish prejudice:
5

[A]ppellant claimed that trial counsel was ineffective for failing to
file a motion to dismiss counts 2 and 6. Appellant argued that he
could not be convicted of conspiracy to commit murder or murder
based upon a “transferred intent” doctrine. Appellant failed to
demonstrate that his trial counsel’s performance was deficient or
that he was prejudiced. Appellant misused the term “transferred
intent.” Appellant’s claim related to his belief that there was an
intervening cause of death—pneumonia. A claim challenging
medical error as an intervening cause was raised and rejected on
appeal. Dominguez v. State, Docket No. 55061 (Order of
Affirmance, December 10, 2010). Appellant cannot demonstrate
prejudice for counsel’s failure to file a motion to dismiss based on
an intervening cause in this case. Therefore, we conclude that the
district court did not err in denying this claim. 160

6
7
8
9
10
11
12

13 Dominguez also included this claim in his second state habeas petition. 161 The Nevada Supreme
14 Court affirmed the denial of Dominguez’s second state habeas petition because it was untimely,
15 successive, and procedurally barred. 162
Dominguez again raised this claim in Ground 2 of his third state habeas petition. 163 In

16

17 Ground 2 of his third state habeas petition, unlike his previous two state habeas petitions,
18 Dominguez discussed Dr. Bruce J. Hirschfeld’s review of Friedman’s autopsy report and Dr.
19
20
21
22
23

159

See ECF No. 24 at 7.

160

ECF No. 24-23 at 3.

161

See ECF No. 24-10 at 5.

162

ECF No. 24-25.

163

See ECF No. 59-1 at 13.
25

App.0027
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 26 of 40

1 Hirschfeld’s opinion regarding Friedman’s cause of death. 164 The Nevada Supreme Court
2 affirmed the denial of Dominguez’s third state habeas petition because it was untimely and
3 successive. 165 The Nevada Supreme Court also explained that “appellant raised several of his
4 claims on direct appeal or in a previous petition and they were rejected by this court on appeal. . .
5 . Those claims are barred by the law-of-the-case doctrine and he has articulated no basis for
6 justifying further consideration of those claims.” 166 I previously noted that the Nevada Supreme
7 Court’s order affirming the denial of Dominguez’s third state habeas petition “did not ‘specify
8 which claims were barred for which reasons.’” 167 Dominguez asserts that this ground should be
9 reviewed de novo because this new claim, with the addition of Dr. Hirschfeld’s report, has not
10 been adjudicated on the merits by the Nevada Supreme Court. 168 I agree.
Dominguez’s third state habeas petition contained two reports by Dr. Hirschfeld. 169 In

11

12 his July 15, 2013, report, Dr. Hirschfeld noted that he reviewed Friedman’s autopsy report and
13 Dr. Telgenhoff’s trial testimony. 170 Dr. Hirschfeld concluded, based on his review of these
14 documents, that “the autopsy findings in [sic] Mr. Friedman and trial testimony of Dr.
15 Telgenhoff provide a picture of an incomplete and inadequate clinical evaluation of the cause
16 and effect of multiple stab wounds sustained by Mr. Friedman in his untimely death.” 171 In his
17 March 8, 2015, report, Dr. Hirschfeld reported that, since his initial report was prepared, he had
18
19
20
21
22
23

164

See id. at 15–18.

165

ECF No. 59-13 at 2.

166

Id. at 2–3.

167

ECF No. 70 at 9 (citing Koerner v. Grigas, 328 F.3d 1039, 1053 (9th Cir. 2003)).

168

ECF No. 85 at 51.

169

See ECF Nos. 24-26, 57-1.

170

ECF No. 24-26 at 2.

171

Id. at 4.
26

App.0028
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 27 of 40

1 reviewed “the American Medical Response ambulance records (AMR), supplemented on paper,
2 as well as 594 pages of medical records from University Medical Center (UMC)” regarding
3 Friedman’s treatment. 172 The review of these additional documents “confirm[ed] that Dr.
4 Telgenhoff’s trial testimony was inaccurate, and failed to accurately document Mr. Friedman’s
5 cause of death.” 173
6

Dr. Hirschfeld explained that it was his medical opinion, stated to a reasonable degree of

7 medical probability, that “the direct and primary cause of Mr. Friedman’s death was not an
8 assault with sharp stab wounds penetrating injuries to the abdomen and right flank, which was
9 only a proximate cause of his death because of the clinical nature in which he was treated.” 174
10 Dr. Hirschfeld “question[ed] that if the jury had been educated about the true facts of Mr.
11 Friedman’s medical course, complications, and alternatives to the treatment he received, . . .
12 whether or not it would have had an impact on their decision.” 175 In summary, Dr. Hirschfeld
13 concluded, to a reasonable degree of medical probability that Friedman died from his medical
14 treatment, not his stab wounds:
15

the abdominal and right flank penetrating injuries he sustained
were not life threatening at the time of his laparotomy, and would
never have become life threatening if treated in an alternative
fashion . . . by closure of the abdominal fascial defect, local wound
care, with antibiotics, a CT scan of the abdomen and pelvis, and/or
peritoneal lavage, with observation. Mr. Friedman, unfortunately,
died due to an aggressive approach to his injuries in a stable
patient, with a stem-to-stern exploratory laparotomy done on an
emergency basis, and unfortunately complicated by nausea, severe
vomiting, aspiration, cardiopulmonary arrest, and anoxic brain
injury. This series of circumstances could have been prevented;
however, as stated before, my review of the medical records

16
17
18
19
20
21
22
23

172

ECF No. 57-1 at 2.

173

Id. at 10.

174

Id. at 11.

175

Id.
27

App.0029
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 28 of 40

1

indicated that Mr. Friedman’s care, at all times, met appropriate
and acceptable standards, and there was no evidence of negligence
in his care or treatment. 176

2
3

“A claim has not been fairly presented in state court if new factual allegations either

4 ‘fundamentally alter the legal claim already considered by the state courts,’ or ‘place the case in
5 a significantly different and stronger evidentiary posture than it was when the state courts
6 considered it.’” 177 I find that this new evidence presented by Dominguez fundamentally altered
7 the claim from its presentation in Dominguez’s first state habeas action. Dr. Hirschfeld’s report
8 places the claim in a significantly different and stronger evidentiary posture than in state court,
9 where Dominguez presented no evidence from outside the state-district-court record to support
10 the claim. 178 Therefore, Ground 2 is subject to the procedural-default doctrine and is barred by
11 that doctrine 179 unless Dominguez can overcome the procedural default.
12

b.

13

Ground 2 is procedurally defaulted.

In Coleman v. Thompson, the Supreme Court held that a state prisoner who fails to

14 comply with the state’s procedural requirements in presenting his claims is barred by the
15 adequate and independent state-ground doctrine from obtaining a writ of habeas corpus in federal
16
17

176

Id. at 12.

177

Dickens v. Ryan, 740 F.3d 1302, 1318 (9th Cir. 2014) (internal citation omitted) (quoting
Vasquez v. Hillery, 474 U.S. 254, 260 (1986) and Aiken v. Spalding, 841 F.2d 881, 883 (9th Cir.
19 1988)).
178
See id. at 1319 (explaining that “the new evidence creates a mitigation case that bears little
20 resemblance to the naked Strickland claim raised before the state courts”).
18

179

See Nev. Rev. Stat. § 34.726, 34.800, 34.810; 28 U.S.C. § 2254(b)(1)(B)(i); Woodford v. Ngo,
548 U.S. 81, 92-93 (2006) (“[I]f state-court remedies are no longer available because the
prisoner failed to comply with the deadline for seeking state-court review or for taking an appeal,
22
those remedies are technically exhausted, . . . but exhaustion in this sense does not automatically
entitle the habeas petitioner to litigate his or her claims in federal court. Instead, if the petitioner
23
procedurally defaulted those claims, the prisoner generally is barred from asserting those claims
in a federal habeas proceeding.”).
21

28

App.0030
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 29 of 40

1 court. 180 Such a procedural default may be excused only if “a constitutional violation has
2 probably resulted in the conviction of one who is actually innocent” or the prisoner demonstrates
3 cause for the default and prejudice resulting from it. 181 To demonstrate cause for a procedural
4 default, the petitioner must “show that some objective factor external to the defense impeded”
5 his efforts to comply with the state procedural rule. 182 For cause to exist, the external
6 impediment must have prevented the petitioner from raising the claim. 183 With respect to the
7 prejudice prong, the petitioner bears “the burden of showing not merely that the errors
8 [complained of] constituted a possibility of prejudice, but that they worked to his actual and
9 substantial disadvantage, infecting his entire [proceeding] with errors of constitutional
10 dimension.” 184
11

In Martinez v. Ryan, the Supreme Court ruled that ineffective assistance of post-

12 conviction counsel may serve as cause to overcome the procedural default of a claim of
13 ineffective assistance of trial counsel. 185 The Coleman Court had held that the absence or
14 ineffective assistance of state post-conviction counsel generally could not establish cause to
15 excuse a procedural default because there is no constitutional right to counsel in state post16
17
18

180

501 U.S. 722, 731-32 (1991) (“Just as in those cases in which a state prisoner fails to exhaust
state remedies, a habeas petitioner who has failed to meet the State’s procedural requirements for
19 presenting his federal claims has deprived the state courts of an opportunity to address those
claims in the first instance.”).
20
181
Murray v. Carrier, 477 U.S. 478, 496 (1986).
21 182 Id. at 488.
22

183

See McCleskey v. Zant, 499 U.S. 467, 497 (1991).

184

White v. Lewis, 874 F.2d 599, 603 (9th Cir. 1989) (citing United States v. Frady, 456 U.S.
23 152, 170 (1982)).
185

566 U.S. 1 (2012).
29

App.0031
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 30 of 40

1 conviction proceedings. 186 In Martinez, however, the Supreme Court established an equitable
2 exception to that rule, holding that the absence or ineffective assistance of counsel at an initial3 review collateral proceeding may establish cause to excuse a petitioner’s procedural default of
4 substantial claims of ineffective assistance of trial counsel. 187 The Court described “initial5 review collateral proceedings” as “collateral proceedings which provide the first occasion to
6 raise a claim of ineffective assistance at trial.” 188
Dominguez was unrepresented throughout his initial state habeas action, 189 so the only

7

8 issue is whether Dominguez’s underlying ineffective-assistance-of-trial-counsel claim is
9 substantial. Because this claim, as now presented, was not adjudicated on its merits in state
10 court, I review the claim de novo. 190
11

Although Dominguez’s trial counsel may have strategically decided to cross-examine Dr.

12 Telgenhoff as to the cause of Friedman’s death, as opposed to retaining an expert to dispute his
13 findings, 191 as the respondents point out, that does not demonstrate that Dominguez’s trial
14 counsel was not deficient in this case. Indeed, because Friedman’s death was complicated by the
15 treatment that he received following the attack, the issue of causation should have been a main
16 topic at trial that deserved much attention and consideration. It is unclear why Dominguez’s trial
17
18
19
20
21
22
23

186

See Coleman, 501 U.S. at 752–54.

187

See Martinez, 566 U.S. at 9.

188

Id. at 8.

189

See ECF Nos. 24; 24-4 at 2; 24-23 at 2.

190

See Cone v. Bell, 556 U.S. 449, 472 (2009).

191

Cf. Harrington, 562 U.S. at 111 (“Strickland does not enact Newton’s third law for the
presentation of evidence, requiring for every prosecution expert an equal and opposite expert
from the defense.”).
30

App.0032
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 31 of 40

1 counsel did not attempt to present his own witness, like Dr. Hirschfield, to rebut Dr.
2 Telgenhoff’s findings, especially considering the significance of his sole testimony on causation.
3

But even if Dominguez’s trial counsel was deficient in investigating the cause of

4 Friedman’s death, Dominguez fails to demonstrate prejudice regarding the specific claim at
5 issue—the failure to move to dismiss the charges. 192 Whether the State met its burden of
6 proving proximate causation through the testimony of Dr. Telgenhoff was an issue for the jury—
7 the finder of fact. 193 So, even if Dominguez’s trial counsel had moved to dismiss the murder and
8 conspiracy to commit murder charges either prior to the trial or after the close of evidence, the
9 state district court would have denied that motion under Nevada law. 194 Accordingly, because a
10 motion to dismiss the murder and conspiracy-to-commit-murder charges would have been
11 inappropriate and denied, there is not a reasonably probable that, but for counsel’s errors, the
12 result of the proceeding would have been different. 195 Because Dominguez has not shown
13
14

192

Strickland, 466 U.S. at 694.

193

See McNair v. State, 825 P.2d 571, 573 (Nev. 1992) (“[I]t is the jury’s function, not that of
the court, to assess the weight of the evidence.”); Lay v. State, 886 P.2d at 450 (“[I]t is
16 exclusively within the province of the trier of fact to weigh evidence and pass on the credibility
of witnesses and their testimony.”); Etcheverry, 821 P.2d at 351 (explaining that the jury was
accurately
instructed on the issue of proximate cause).
17
194
See State v. Wilson, 760 P.2d 129, 130 (Nev. 1988) (“[I]t was error for the trial court to take
18 the case from the jury by dismissing the action at the close of the prosecution’s case in lieu of
giving the jury an advisory instruction to acquit because of insufficient evidence.”); State v.
19 Corinblit, 298 P.2d 470, 471 (Nev. 1956) (holding that “the trial court was in error in taking the
case from the jury” when it “ordered the case dismissed [as requested by the defense] for failure
20 of the state to prove a material element of the crime charged” after the State completed its case);
Silks v. State, 545 P.2d 1159, 1161 (Nev. 1976) (explaining that, instead of moving to dismiss the
21 charges against him, the defendant “should have moved that the jury be advised to acquit by
reason of insufficient evidence”); State v. Combs, 14 P.3d 520, 521 (Nev. 2000) (“not[ing] that
22 respondent’s motion to dismiss the charges at the close of the State’s case-in-chief was not
properly made[] and should not have been granted by the district court judge. Instead, respondent
23 should have moved for an advisory instruction to acquit pursuant to NRS 175.381(1).”).
15

195

Strickland, 466 U.S. at 694.
31

App.0033
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 32 of 40

1 prejudice resulting from his trial counsel’s alleged failure to dismiss the murder and conspiracy
2 to commit murder counts, Ground 2 is not substantial. Accordingly, there is no cause to excuse
3 Dominguez’s procedural default. 196 Ground 2 is denied because it is procedurally defaulted.
4

3.

5

In Ground 3, Dominguez alleges that his federal constitutional rights were violated when

Ground 3

6 his trial counsel failed to investigate the State’s witnesses. 197 Dominguez explains that the State
7 noticed various medical professionals, including hospital personnel, paramedics, and coroner’s
8 office personnel, but his trial counsel failed to investigate these witnesses to determine whether
9 they could have established that Friedman’s surgery was an intervening cause of Friedman’s
10 death, especially in light of the fact that the State failed to call anyone but Dr. Telgenhoff,
11 implying that the other medical professionals would not have been helpful to the State’s case. 198
12 Dominguez explains that Dr. Hirschfeld’s report establishes that an investigation was crucial in
13 this case, so his trial counsel should have obtained Friedman’s medical records and consulted an
14 expert. 199
15

a.

Ground 3 was not adjudicated on its merits in state court.

Dominguez included this claim in his first state habeas petition. 200 The Nevada Supreme

16

17 Court rejected it because Dominguez did not identify any evidence that would have changed the
18 outcome at trial:
19

[A]ppellant claimed that trial counsel failed to conduct an
investigation or interviews of the State’s witnesses. Appellant

20
21
22
23

196

Martinez, 566 U.S. at 9.

197

ECF No. 61 at 23.

198

Id. at 24.

199

Id. at 24-25.

200

ECF No. 24 at 16.
32

App.0034
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 33 of 40

1

failed to demonstrate that his trial counsel’s performance was
deficient or that he was prejudiced. While appellant listed the
witnesses, appellant failed to indicate what evidence or testimony
investigators or interviews would have uncovered that would have
had a reasonable probability of altering the outcome at trial.
Therefore, we conclude that the district court did not err in denying
this claim. 201

2
3
4

5 Dominguez also included this claim in his second state habeas petition. 202 The Nevada Supreme
6 Court affirmed the denial of Dominguez’s second state habeas petition because it was untimely,
7 successive, and procedurally barred. 203
Dominguez again raised this claim in his third state habeas petition. 204 That time,

8

9 however, Dominguez discussed Dr. Hirschfeld’s report. 205 The Nevada Supreme Court affirmed
10 the denial of Dominguez’s third state habeas petition because it was untimely and successive. 206
11 The Nevada Supreme Court also explained that “appellant raised several of his claims on direct
12 appeal or in a previous petition and they were rejected by this court on appeal. . . . Those claims
13 are barred by the law-of-the-case doctrine and he has articulated no basis for justifying further
14 consideration of those claims.” 207
15

As with Ground 2, Dominguez asserts that this ground should be reviewed de novo

16 because this new claim, with the addition of Dr. Hirschfeld’s report, has not been adjudicated on
17 the merits by the Nevada Supreme Court. 208 Again, I agree, as I find that the inclusion of Dr.
18
19
20
21
22
23

201

ECF No. 24-23 at 4.

202

ECF No. 24-10 at 19.

203

ECF No. 24-25.

204

See ECF No. 59-1 at 19.

205

See id. at 20-–23.

206

ECF No. 59-13 at 2.

207

Id. at 2–3.

208

ECF No. 85 at 58.
33

App.0035
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 34 of 40

1 Hirschfeld’s report fundamentally altered this claim for the same reasons it did Ground 2. 209
2 Therefore, Ground 3 is also subject to the procedural-default doctrine and is barred by that
3 doctrine unless Dominguez can overcome the procedural default. And because Dominguez was
4 unrepresented throughout his initial state habeas action, 210 the only issue is whether
5 Dominguez’s underlying ineffective-assistance-of-trial-counsel claim is substantial. Because
6 this claim, as now presented, was not adjudicated on its merits in state court, I review the claim
7 de novo. 211
8

b.

9

Ground 3 is procedurally defaulted.

Defense counsel has a “duty to make reasonable investigations or to make a reasonable

10 decision that makes particular investigations unnecessary.” 212 “In any ineffectiveness case, a
11 particular decision not to investigate must be directly assessed for reasonableness in all the
12 circumstances, applying a heavy measure of deference to counsel’s judgments.” 213 This
13 investigatory duty includes investigating the defendant’s “most important defense,” 214 and
14 investigating and introducing evidence that demonstrates factual innocence or evidence that
15 raises sufficient doubt about the defendant’s innocence. 215 “[I]neffective assistance claims based
16 on a duty to investigate must be considered in light of the strength of the government’s case.” 216
17
18
19
20
21
22
23

209

Dickens, 740 F.3d at 1318.

210

See ECF Nos. 24; 24-4 at 2; 24-23 at 2.

211

See Cone v. Bell, 556 U.S. 449, 472 (2009).

212

Strickland, 466 U.S. at 691.

213

Id.

214

Sanders v. Ratelle, 21 F.3d 1446, 1457 (9th Cir. 1994).

215

Hart v. Gomez, 174 F.3d 1067, 1070 (9th Cir. 1999).

216

Eggleston v. United States, 798 F.2d 374, 376 (9th Cir. 1986).
34

App.0036
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 35 of 40

1

The State listed numerous expert medical witnesses: Dr. Piotr Kubiczek,

2 Paramedics/AMR Unit 3911, Dr. David McElmeel, Dr. Patrick Murphy, Dr. Sernariano, Dr.
3 Deborah Kuls, Dr. Casey Michael, Dr. Laura Boomer, Dr. Shaw Tang, and Dr. Stephanie
4 Woodard. 217 It is unclear from the record what, if any, investigation was conducted by
5 Dominguez’s trial counsel into these possible witnesses. But because causation was a significant
6 issue at trial, to the extent that Dominguez’s trial counsel failed “to make reasonable
7 investigations” into the cause of Friedman’s death, counsel was deficient. 218
But even if counsel was deficient, Dominguez fails to show prejudice. 219 First, as

8

9 respondents note, Dominguez fails to demonstrate that an investigation into any of the State’s
10 witnesses would have led to favorable evidence. 220 Second, even if Dominguez’s trial counsel
11 had presented the testimony of an expert such as Dr. Hirschfeld, that testimony would only have
12 presented a question of fact as to Friedman’s cause of death for the jury to resolve after also
13 considering Dr. Telgenhoff’s testimony. It also must be remembered that Dr. Hirschfeld
14 concluded that Friedman’s death was the result of the aggressive medical approach taken during
15 his hospitalization for the stab wounds. 221 And Dominguez fails to demonstrate that testimony
16 such as this would have changed the outcome of his trial when the jury was instructed that “[a]
17 person is liable for the killing of another person even if the death of the victim was the result of
18 medical treatment, so long as the wound inflicted upon the victim was the reason [that]
19
20
21
22

217

ECF No. 21-10.

218

Strickland, 466 U.S. at 688, 691.

219

Id. at 694.

220

See Djerf v. Ryan, 931 F.3d 870, 881 (9th Cir. 2019) (“Strickland prejudice is not established
23 by mere speculation.”).
221

ECF No. 57-1 at 12.
35

App.0037
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 36 of 40

1 necessitated the treatment.” 222 So, although Dr. Hirschfeld opined that the wounds inflicted upon
2 Friedman only necessitated conservative treatment, the treatment that Friedman received—
3 aggressive or not—was still the result of the wounds inflicted upon Friedman.
4

Because Dominguez has not shown a reasonable probability that, but for counsel’s failure

5 to investigate the State’s witnesses, the result of his trial would have been different, 223 Ground 3
6 is not substantial. Therefore, there is no cause to excuse Dominguez’s procedural default. 224
7 Ground 3 is denied because it is procedurally defaulted.
8

4.

9

In Ground 4, Dominguez alleges that his federal constitutional rights were violated when

Ground 4

10 his trial counsel failed to object to the reasonable doubt jury instruction. 225 Dominguez explains
11 that the reasonable-doubt instruction shifted the burden to him, lowered the State’s burden of
12 proof, and relieved the State of its obligation to prove the elements of the charged crime. 226
13 Dominguez focuses on the “govern or control” language in the following sentence of the
14 instruction: “It is not mere possible doubt but is such a doubt as would govern or control a
15 person in the more weighty affairs of life.” 227 In Dominguez’s appeal from the denial of his first
16 state habeas petition, the Nevada Supreme Court rejected this theory because the instruction was
17 proper:
18

[A]ppellant claimed that trial counsel failed to object to jury
instruction 39, which defined reasonable doubt. Appellant failed to
demonstrate that his trial counsel’s performance was deficient or

19
20
21
22
23

222

ECF No. 23-2 at 33.

223

Strickland, 466 U.S. at 694.

224

Martinez, 566 U.S. at 9.

225

ECF No. 61 at 29.

226

Id. at 30.

227

ECF No. 85 at 64.
36

App.0038
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 37 of 40

1

that he was prejudiced. Jury instruction 39 contained the statutory
definition of reasonable doubt as set forth in NRS 175.211, and
NRS 175.211 has been previously determined to be constitutional.
Lord v. State, 107 Nev. 28, 40, 806 P.2d 548, 556 (1991).
Therefore, we conclude that the district court did not err in denying
this claim. 228

2
3
4
5

“[T]he Due Process Clause protects the accused against conviction except upon proof

6 beyond a reasonable doubt of every fact necessary to constitute the crime with which he is
7 charged.” 229 “[T]he Constitution does not require that any particular form of words be used in
8 advising the jury of the government’s burden of proof. Rather, ‘taken as a whole, the instructions
9 [must] correctly conve[y] the concept of reasonable doubt to the jury.’” 230 In assessing the
10 constitutionality of a jury instruction, I must determine “whether there is a reasonable likelihood
11 that the jury understood the instructions to allow conviction based on proof insufficient to meet
12 the Winship standard.” 231
13

The Nevada Supreme Court’s rejection of Dominguez’s Strickland claim was neither

14 contrary to nor an unreasonable application of clearly established law as determined by the
15 United States Supreme Court. Jury Instruction No. 39 read:
16

The Defendant is presumed innocent until the contrary is proved.
This presumption places upon the State the burden of proving
beyond a reasonable doubt every material element of the crime
charged and that the Defendant is the person who committed the
offense. A reasonable doubt is one based on reason. It is not mere
possible doubt but is such a doubt as would govern or control a
person in the more weighty affairs of life. If the minds of the
jurors, after the entire comparison and consideration of all the
evidence, are in such a condition that they can say they feel an

17
18
19
20
21
22

228

ECF No. 24-23 at 5.

229

In re Winship, 397 U.S. 358, 364 (1970).

230

Victor v. Nebraska, 511 U.S. 1, 5 (1994) (internal citation omitted) (quoting Holland v.
23 United States, 348 U.S. 121, 140 (1954)).
231

Id. at 6.
37

App.0039
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 38 of 40

1

abiding conviction of the truth of the charge, there is not a
reasonable doubt. Doubt to be reasonable must be actual, not mere
possibility or speculation. If you have a reasonable doubt as to the
guilt of the Defendant, he is entitled to a verdict of not guilty. 232

2
3

4 The Ninth Circuit evaluated the same reasonable-doubt instruction in Ramirez v. Hatcher. 233
5 The panel explained that it did “not endorse the Nevada instruction’s ‘govern or control’
6 language,” but “‘not every unhelpful, unwise, or even erroneous formulation of the concept of
7 reasonable doubt in a jury charge renders the instruction constitutionally deficient.’” 234 And the
8 court held that, “[c]onsidering the jury instructions in this case in their entirety, . . . the ‘govern
9 or control’ language did not render the charge unconstitutional.” 235 Jury Instruction No. 39 also
10 complied with Nevada law. 236
11

Because the language of this instruction has been determined to be constitutional by the

12 Ninth Circuit, and it complies with Nevada law, the Nevada Supreme Court reasonably
13 concluded that Dominguez’s trial counsel was not deficient for not objecting to the instruction. 237
14 Dominguez is denied federal habeas relief for Ground 4.
15
16
17
18
19
20

232

ECF No. 23-2 at 42.

233

136 F.3d 1209, 1210–11 (9th Cir. 1998).

234

Id. at 1214 (citing Vargas v. Keane, 86 F.3d 1273, 1277 (2d Cir. 1996)).

235

Id.; see also Nevius v. McDaniel, 218 F.3d 940, 944 (9th Cir. 2000) (holding that the
reasonable
doubt jury instruction was identical to the one in Ramirez, so “[t]he law of this circuit
21
thus forecloses Nevius’s claim that his reasonable doubt instruction was unconstitutional”).
22

236

See Nev. Rev. Stat. § 175.211 (defining reasonable double and mandating that “[n]o other
definition of reasonable doubt may be given by the court to juries in criminal actions in this
23 State”).
237

Strickland, 466 U.S. at 688.
38

App.0040
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 39 of 40

1

5.

2

In Ground 5, Dominguez alleges that he is entitled to relief because of the cumulative

Ground 5

3 effect of his trial counsel’s errors. 238 In Dominguez’s appeal of the denial of his first state
4 habeas petition, the Nevada Supreme Court held: “appellant’s claim that cumulative errors
5 required relief lacks merit.” 239 Cumulative error applies where, “although no single trial error
6 examined in isolation is sufficiently prejudicial to warrant reversal, the cumulative effect of
7 multiple errors may still prejudice a defendant.” 240 Although I have determined that
8 Dominguez’s trial counsel may have been deficient regarding the allegations in Grounds 2 and 3,
9 I also determined that Dominguez failed to demonstrate prejudice. I now determine, based on
10 my previous reasonings in Ground 2 and 3, that the cumulative effect of these two deficiencies
11 does not prejudice Dominguez. 241
12 C.

Certificate of Appealability

13

The right to appeal from the district court’s denial of a federal habeas petition requires a

14 certificate of appealability. To obtain that certificate, the petitioner must make a “substantial
15 showing of the denial of a constitutional right.” 242 “Where a district court has rejected the
16 constitutional claims on the merits,” that showing “is straightforward: The petitioner must
17
18
19
20

238

ECF No. 61 at 31.

239

ECF No. 24-23 at 6.

240

United States v. Frederick, 78 F.3d 1370, 1381 (9th Cir. 1996).

241

Dominguez requests an evidentiary hearing where he can offer proof “concerning the
21 allegations in [his] amended petition.” ECF Nos. 61 at 39; 85 at 72. I have already determined
that Dominguez is not entitled to relief, and I find that neither further factual development nor
22 any evidence that may be proffered at an evidentiary hearing would affect my reasons for
denying Dominguez’s remaining grounds for relief. So I deny Dominguez’s request for an
23 evidentiary hearing.
242

28 U.S.C. § 2253(c).
39

App.0041
Case 2:12-cv-01608-JAD-DJA Document 91 Filed 04/08/20 Page 40 of 40

1 demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
2 claims debatable or wrong.” 243 Because I have rejected petitioner’s constitutional claims on their
3 merits, and he has not shown that this assessment of his claims is debatable or wrong, I find that
4 a certificate of appealability is unwarranted in this case.
5

Conclusion

6

IT IS THEREFORE ORDERED that the petition [ECF No. 61] is DENIED, and because

7 reasonable jurists would not find my decision to deny this petition to be debatable or wrong, a
8 certificate of appealability is DENIED.
9

The Clerk of Court is directed to ENTER JUDGMENT accordingly and CLOSE THIS

10 CASE.
11

Dated: April 6, 2020.
________________________________
U.S. District Judge Jennifer A. Dorsey

12
13
14
15
16
17
18
19
20
21
22
23

243

Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also James v. Giles, 221 F.3d 1074, 1077–
79 (9th Cir. 2000).
40

App.0042
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 1 of 41

1

7

RENE L. VALLADARES
Federal Public Defender
Nevada State Bar No. 11479
JONATHAN M. KIRSHBAUM
Assistant Federal Public Defender
New York State Bar No. 2857100
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)
Jonathan_Kirshbaum@fd.org

8

Attorney for Petitioner Demian Dominguez

2
3
4
5
6

9

UNITED STATES DISTRICT COURT

10

DISTRICT OF NEVADA

11
12
13
14
15
16
17
18
19
20
21
22
23

DEMAIN DOMINGUEZ aka DEMIAN
DOMINGUEZ,
Petitioner,
v.
BRIAN E. WILLIAMS, et al.,

Case No. 2:12-cv-01608-JAD-PAL
THIRD AMENDED PETITION FOR
WRIT OF HABEAS CORPUS BY A
PERSON IN STATE CUSTODY
PURSUANT TO 28 U.S.C. § 2254

Respondents.

Petitioner, Demian Dominguez (“Dominguez”), by and through his attorney of
record, Jonathan M. Kirshbaum, Assistant Federal Public Defender, files this Third
Amended Petition for Writ of Habeas Corpus by a Person in State Custody Pursuant
to U.S.C. § 2254.
DATED this 14th day of March, 2017.

25

Respectfully submitted,
RENE L. VALLADARES
Federal Public Defender

26

/s/Jonathan M. Kirshbaum

24

27

JONATHAN M. KIRSHBAUM
Assistant Federal Public Defender

App.0043
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 2 of 41

1

I.

2

PROCEDURAL HISTORY

3

On November 24, 2009, the clerk of the Eighth Judicial District Court, Clark

4

County, Nevada, entered a Judgment of Conviction in the case entitled The State of

5

Nevada vs. Demian Dominguez, Case No. C243455. (Ex. 65.1)

6

Following a six-day jury trial, Dominguez was found guilty of the following

7

crimes: Conspiracy to Commit Robbery (Count 1), Conspiracy to Commit Murder

8

(Count 2), Conspiracy to Commit a Crime (Count 3), Burglary (Count 4), Robbery

9

With Use of a Deadly Weapon (Count 5), and Murder With Use of a Deadly Weapon

10

(Count 6).

11

months with a minimum parole eligibility of thirteen (13) months; Count 2 -

12

maximum of ninety-six (96) months with a minimum parole eligibility of twenty-four

13

(24) months, and $20,000.00 restitution jointly and severally, Count 2 to run

14

consecutive to Count 1; Count 3 - maximum of twelve (12) months, Count 3 to run

15

concurrent with Count 2; Count 4 - maximum of ninety-six (96) months with a

16

minimum parole eligibility of twenty-two (22) months, Count 4 to run concurrent with

17

Counts 1, 2 and 3; Count 5 - maximum of one hundred fifty-six (156) months with a

18

minimum parole eligibility of thirty-five (35) months, plus a consecutive term of one

19

hundred fifty-six (156) months maximum and thirty-five (35) months minimum for

20

the Use of a Deadly Weapon, Count 5 to run concurrent with Counts 1 through 4;

21

Count 6 - maximum of life with a minimum parole eligibility of twenty (20) years,

22

plus a consecutive maximum term of life with a minimum parole eligibility of twenty

23

(20) years, Count 6 to run concurrent with Counts 1 through 5. (Id.) He is currently

Dominguez was sentenced as follows: Count 1 - maximum of sixty (60)

24
25
26
27

1 The Exhibits referenced in this Third Amended Petition, including those
listed in the third supplemental exhibit list included with this pleading, are identified
as “Ex.” Petitioner reserves the right to file supplemental exhibits as needed and
relevant.

2

App.0044
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 3 of 41

1

serving his sentence at the Southern Desert Correctional Center in Indian Springs,

2

Nevada.

3

JUSTICE COURT PROCEEDINGS

4

On December 9, 2007, a criminal complaint was filed in the Justice Court, Las

5

Vegas Township, Clark County, Nevada, in Case No. 07F20157A-B, charging

6

Dominguez and co-defendant Lilani Tomines (“Tomines”) with the crimes of

7

Conspiracy to Commit Robbery (Count 1), Conspiracy to Commit Murder (Count 2),

8

Conspiracy to Commit a Crime (Count 3), Burglary (Count 4), Robbery With Use of a

9

Deadly Weapon (Count 5), and Murder With Use of a Deadly Weapon (Count 6). (Ex.

10

6.) An Amended Criminal Complaint was filed on December 14, 2007, to reflect the

11

correct name of the victim. (Ex. 7.)

12

Dominguez’s preliminary hearing took place on March 18, 2008 and April 16,

13

2008, before the Honorable Melissa Saragosa. (Exs. 12, 15.) Dominguez was present

14

throughout the hearing with Deputy Public Defender Norman J. Reed. After witness

15

testimony and arguments from counsel, the justice court bound Dominguez over on

16

the charges as listed in the Amended Criminal Complaint. (Ex. 15)

17

DISTRICT COURT PROCEEDINGS

18

On April 18, 2008, an Information was filed charging Dominguez with

19

Conspiracy to Commit Robbery, a felony violation of NRS 199.480, 200.380 (Count 1),

20

Conspiracy to Commit Murder, a felony violation of NRS 199.480, 200.010, 200.030

21

(Count 2), Conspiracy to Commit a Crime, a gross misdemeanor violation of NRS

22

199.480 (Count 3), Burglary, a felony violation of NRS 205.060 (Count 4), Robbery

23

With Use of a Deadly Weapon, a felony violation of NRS200.380, 193.165 (Count 5),

24

and Murder With Use of a Deadly Weapon, a felony violation of NRS 200.010,

25

200.030, 193.165 (Count 6). (Ex. 16.)

26
27
3

App.0045
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 4 of 41

1

The initial arraignment took place before the Honorable Kevin Williams

2

(“Williams”) on May 28, 2008. (Ex. 17.) Dominguez was present throughout with

3

Attorney Reed.

4

Information and waived the sixty (60) day rule. (Id.)

(Id.) Dominguez pled not guilty to the charges as listed in the

5

A pre-trial Petition for Writ of Habeas Corpus was filed on June 9, 2008,

6

arguing that (1) the hearsay statements used by the government were not admissible

7

to show that the declarant lied, (2) the decedent’s statements to Tomines constitutes

8

double hearsay and were also inadmissible, (3) the testimony of Anderson and

9

Martinez regarding Tomines’s statements were not made during the course and in

10

furtherance of the alleged conspiracy, and (4) there is insufficient independent

11

evidence necessary to prove the existence of a conspiracy. (Ex. 19.)

12

On August 7, 2008, a hearing took place before the Honorable Valorie J. Vega

13

on the pre-trial petition. (Ex. 23.) Dominguez was present with Attorney Reed

14

throughout this hearing. Following arguments of counsel, the trial court denied the

15

petition. (Id.) The written order denying the petition was filed on September 18,

16

2008. (Ex. 24.)

17
18

Attorney James E . Smith substituted in as counsel for Dominguez on January
2, 2009. (Ex. 27.)

19

A hearing took place before the Honorable Valorie J. Vega on February 5, 2009,

20

at which the State and counsel for co-defendant Tomines stipulated to sever the trial

21

for the two defendants to avoid any Bruton problems with the co-defendant’s and co-

22

conspirator’s statements. (Ex. 107.)

23

On June 30, 2009, co-defendant Tomines pled guilty to the charge of Murder

24

(Exs. 34, 35) and was sentenced to life with a minimum parole eligibility of twenty

25

(20) years on September 1, 2009. (Ex. 61.) Tomines’s Judgment of Conviction was

26

filed on September 18, 2009. (Id.)

27
4

App.0046
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 5 of 41

1

Dominguez’s jury trial commenced on July 6, 2009, and continued through July

2

13, 2009, before Judge Vega. (Exs. 38, 41, 42, 46, 53, 57.) Dominguez was present

3

throughout with Attorney Smith. (Id.) In addition to filing no pre-trial motions in

4

this case, Smith presented no witnesses on behalf of Dominguez and Dominguez did

5

not testify. Dominguez was found guilty of all the charges as listed in the Amended

6

Information. (Ex. 56.)

7
8
9

The sentencing hearing took place on November 12, 2009. (Ex. 63.) The final
sentence Dominguez received is set forth above on page 2 and incorporated herein.
The Judgment of Conviction was filed on November 24, 2009. (Ex. 65.)

10

In December 2009, Dominguez’s brother and co-conspirator, Ivan Dominguez

11

(“Ivan”), was tried before a jury in the Eighth Judicial District Court in Case No.

12

C246301 on the same charges as Dominguez, but Ivan was acquitted of Burglary

13

(Count 4) and Robbery With Use of a Deadly Weapon (Count 5). (Ex. 70.)

14

DIRECT APPEAL

15

On December 8, 2009, a Notice of Appeal was filed. (Ex. 67.) The Nevada

16
17
18
19
20
21

Supreme Court docketed this appeal as Case No. 55061.
Attorney Thomas A. Ericsson was appointed to represent Dominguez in his
appeal on December 1, 2009. (Ex. 5.)
On July 28, 2010, Appellant’s Opening Brief was filed. (Ex. 71.) Attorney
Ericsson raised the following assignments of error:
I.

22

WHETHER THE CONSPIRACY TO COMMIT ROBBERY CONVICTION
SHOULD BE REVERSED AS A VIOLATION OF THE 5TH AND 14TH
AMENDMENT RIGHTS BECAUSE IT IS NOT SUPPORTED BY THE

23

EVIDENCE SINCE THERE WAS NO PROOF AT TRIAL THAT THERE

24

ANYTHING BE TAKEN FROM THE VICTIM.

25
26
27

WAS EVER ANY AGREEMENT OR INTENT BY DEMIAN THAT

II.

WHETHER

THE ROBBERY CONVICTION SHOULD BE REVERSED

AS A VIOLATION OF

5TH

AND

14TH

AMENDMENT RIGHTS

BECAUSE IT IS NOT SUPPORTED BY THE EVIDENCE SINCE THERE

5

App.0047
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 6 of 41

1

WAS NO PROOF AT TRIAL THAT DEMIAN OR ANY OF HIS COCONSPIRATORS TOOK ANYTHING FROM THE VICTIM BY FORCE

2
3
4

OR THE THREAT OF FORCE.

III.

WHETHER THE MURDER CONVICTION SHOULD BE REVERSED AS
A VIOLATION OF THE 5TH AND 14TH AMENDMENT RIGHTS
SINCE THE EVIDENCE ESTABLISHED THAT THE STAB WOUNDS

5

SUFFERED BY THE VICTIM WERE SUPERFICIAL, AND THAT HE

6

WOULD

7

CAUSE OF DEATH.

8
9

HAVE

SURVIVED

BUT

FOR

IMPROPER

MEDICAL

INTERVENTION WHICH WAS THE ACTUAL AND PROXIMATE

The Nevada Supreme Court filed its Order of Affirmance on December 10,
2010. (Ex. 74.) Remittitur issued on January 4, 2011. (Ex. 75.)

10

STATE POST-CONVICTION PETITION

11

Dominguez, in proper person, filed in the state court a Petition for Writ of

12

Habeas Corpus (Post-Conviction) (ex. 80) on August 17, 2011, along with a Motion

13

for Appointment of Counsel and Request for Evidentiary Hearing (ex. 78.)

14

petition raised the following grounds for relief:

15

I.

16

18
II.

20

25
26

TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO HAVE
PETITIONER TAKE A PSYCHIATRIC EVALUATION AS TO
WHETHER OR NOT PETITIONER HAD FORMED THE REQUISITE
WEAPON, VIOLATING

PETITIONER’S SIXTH AND FOURTEENTH
AMENDMENT RIGHTS TO THE U.S. CONSTITUTION.

22

24

2 AND 6 OF THE AMENDED
PETITIONER’S SIXTH AND
RIGHTS TO THE U.S.

INTENT TO COMMIT A MURDER WITH USE OF A DEADLY

21

23

COUNSEL WAS INEFFECTIVE FOR FAILING TO FILE A

INFORMATION VIOLATING
FOURTEENTH AMENDMENT
CONSTITUTION.

17

19

TRIAL

MOTION TO DISMISS COUNTS

III.

DEFENSE

COUNSEL WAS INEFFECTIVE WHEN HE FAILED TO

CONDUCT ANY INVESTIGATION AND INTERVIEW ANY OF THE
STATE’S WITNESSES PRIOR TO TRIAL, VIOLATING PETITIONER’S
SIXTH AND FOURTEENTH AMENDMENT RIGHTS TO THE U.S.
CONSTITUTION.

27
6

His

App.0048
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 7 of 41

1

IV.

DEFENSE COUNSEL WAS INEFFECTIVE FOR FAILING TO OBJECT
TO JURY INSTRUCTION NUMBER 30, DEFINING THE TRANSFER
OF INTENT TO INCLUDE MEDICAL TREATMENT, AS BEING
UNCONSTITUTIONAL, VIOLATING PETITIONER’S SIXTH AND
FOURTEENTH AMENDMENT RIGHTS TO THE U.S.
CONSTITUTION.

V.

DEFENSE COUNSEL WAS INEFFECTIVE FOR FAILING TO OBJECT
TO JURY INSTRUCTION NUMBER 39, AS BEING A STRUCTURAL
ERROR, VIOLATING PETITIONER’S RIGHTS TO DUE PROCESS OF
LAW AND A FAIR TRIAL, AND PETITIONER’S SIXTH AND
FOURTEENTH AMENDMENT RIGHTS TO THE U.S.
CONSTITUTION.

2
3
4
5
6
7
8
9

VI.

10
11

VII.

13

17
18

PETITIONER’S

SIXTH

THE

AND

FOURTEENTH AMENDMENT

RIGHTS

ACCUMULATION OF COUNSEL’S ERRORS HAS DEPRIVED

PETITIONER OF HIS

SIXTH

AND

FOURTEENTH AMENDMENT

RIGHTS TO THE U.S. CONSTITUTION.

14

16

COUNSEL WAS INEFFECTIVE FOR FAILING TO

TO THE U.S. CONSTITUTION.

12

15

APPELLATE

PRESENT MERITORIOUS ISSUES ON DIRECT APPEAL, VIOLATING

(Ex. 80.)
On August 23, 2011, the trial court ordered the State to respond. (Ex. 81.) The
State’s response was filed on October 5, 2011. (Ex. 82.)
On November 22, 2011, a hearing took place on Dominguez’s proper person

19

Petition for Writ of Habeas Corpus.

(Ex. 5.)

Dominguez was not present nor

20

represented by counsel at this hearing. (Id.) Without benefit of argument, the court

21

stated its findings and denied the petition. (Id.)

22

The Findings of Fact, Conclusions of Law and Order were filed on December

23

21, 2011. (Ex. 84.) The Notice of Entry of Decision and Order was entered on

24

December 29, 2011. (Ex. 85.)

25
26

A timely Notice of Appeal was filed on December 30, 2011. (Ex. 86.) The
Nevada Supreme Court docketed this appeal as Case No. 59966.

27
7

App.0049
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 8 of 41

1
2

On July 25, 2012, absent any briefing, the Nevada Supreme Court issued an
Order of Affirmance. (Ex. 103.) Remittitur issued on August 20, 2012. (Ex. 104.)

3

On January 12, 2012, while the above appeal was pending, Dominguez, in

4

proper person, filed a second petition in the Eighth Judicial District Court raising all

5

of his direct appeal and prior state habeas claims verbatim. (Ex. 90.) Although this

6

petition is clearly on the federal form (Id.), the trial court directed the State to respond

7

on January 27, 2012. (Ex. 92.) The State responded on February 22, 2012, arguing

8

that this petition was untimely and successive (Ex. 93), and the trial court agreed in

9

its Findings of Fact, Conclusions of Law and Order filed on April 12, 2012. (Ex. 95.)

10

Dominguez appealed to the Nevada Supreme Court on May 8, 2012. (Ex. 98.) That

11

court affirmed the denial in Case No. 60845 on January 16, 2013.

12

Remittitur issued on February 12, 2013.

13

FEDERAL PROCEEDINGS

14

On September 6, 2012, Dominguez mailed to this Court a pro se Petition for a

15

Writ of Habeas Corpus Pursuant to U.S.C. § 2254 by a Person in State Custody. (ECF

16

No. 1.) On February 1, 2013, this Court assigned the Office of the Federal Defender

17

to represent Dominguez and file an amended petition. (ECF No. 6.)

(Ex. 105.)

18

On September 26, 2013, Dominguez filed a First Amended Petition. (ECF No.

19

18.) On September 27, 2013, Dominguez moved for discovery of the victim’s medical

20

records. (ECF No. 26.) On October 10, 2013, Respondents moved to dismiss the

21

petition. (ECF No. 27.) On August 15, 2014, this Court granted the motion for

22

discovery and denied the motion to dismiss without prejudice. (ECF No. 37.) This

23

Court also granted Dominguez the opportunity to file a second amended petition

24

taking into account the facts learned in discovery. (Id.)

25
26
27
8

App.0050
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 9 of 41

1

On April 2, 2015, Dominguez filed a Second Amended Petition. (ECF No. 50.)

2

As of the date of this pleading, this Court has yet to order the State to respond to the

3

petition.

4

SECOND STATE POST-CONVICTION PETITION

5

On July 30, 2015, Dominguez in proper person filed a third post-conviction

6

petition in state court. (Ex. 112.) He raised verbatim the same six grounds that were

7

raised in the Second Amended Petition filed in federal court. (Id.) On September 10,

8

2015, the State moved to dismiss the petition. (Ex. 114.) On October 29, 2015, the

9

state district court dismissed the petition. (Ex. 119.) Dominguez timely appealed

10

(Ex. 117), and, in an informal brief to the Nevada Supreme Court, raised all six

11

grounds (Ex. 123). On June 22, 2016, the Nevada Supreme Court affirmed the

12

dismissal with one judge dissenting. (Ex. 124.) Remittitur issued on July 19, 2016.

13

(Ex. 126.)

14

II.

15

GROUNDS FOR RELIEF

16

GROUND ONE

17

DOMINGUEZ WAS DENIED HIS DUE PROCESS
RIGHTS UNDER THE FIFTH AND FOURTEENTH
AMENDMENTS
TO
THE
UNITED
STATES
CONSTITUTION BECAUSE THE EVIDENCE AT TRIAL
WAS LEGALLY INSUFFICIENT TO SUPPORT THE
CONVICTION

18
19
20
21
22
23
24

Statement of Exhaustion: This claim was presented to the Nevada Supreme
Court on direct appeal (Ex. 71), and was decided upon by that court (Ex. 74).
Sufficient evidence to support a verdict beyond a reasonable doubt must exist
in order to satisfy the Due Process Clause of the United States Constitution.

25
26
27
9

App.0051
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 10 of 41

1

A.

Evidence Was Legally Insufficient to Support the Murder Conviction

2

In an amended information, Dominguez was charged with murder with use a

3

deadly weapon, robbery with use of a deadly weapon, and conspiracy to commit

4

robbery and murder based on allegations that he and others, including Lilani

5

Tomines (“Tomines”) and his brother Ivan, robbed and stabbed Mark Friedman in his

6

home, which resulted in his death. (Ex. 43.)

7

The evidence at trial established that, at approximately 3:30 a.m. on January

8

30, 2007, Friedman entered his home at 735 Molly Knoll Circle in Las Vegas through

9

his garage and was jumped by five Hispanic males and one Hispanic female and beat

10

him with an unknown object. (Ex. 41 at 42-43.) Officer Garth Findley responded to

11

the scene. When he arrived Friedman was sitting in a chair in his garage. (Id. at 40-

12

41). Lilani Tomines, who knew Friedman and sometimes stayed with him, was

13

standing next to him. (Id.) Friedman told the officer what happened. (Id. at 42-43.)

14

Findley did not administer any first aid to Friedman. The paramedics arrived about

15

five minutes later. (Id. at 52.)

16

Louise Renhard, a crime scene analyst, responded to 735 Molly Knoll Lane.

17

(Ex. 42 at 23.) Medical personnel told her that Friedman was going to live. (Id. at

18

74.) Detective Gordon Martines was assigned to investigate the incident. When he

19

arrived, he was told that the victim had been transported to the hospital. (Id. at 79.)

20

His partner told him that Friedman was going to survive and that his condition did

21

not look life-threatening. (Id. at 87, 93.) Martines interviewed Tomines. In the

22

interview, he indicated to her that Friedman was going to be okay. (Id. at 97; Ex. 1

23

at 32:45.) Martines did not make an effort to interview Friedman on that day because

24

it was his understanding there was “no indication that he’s going to pass away.” (Ex.

25

42 at 98.)

26
27
10

App.0052
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 11 of 41

1

Friedman had been stabbed three times in his torso. (Ex. 53 at 14.) There was

2

no “direct internal injury” from the stab wounds and none of them connected with a

3

vital organ. (Id. at 10, 14-17, 30.) The stab wounds themselves “were not lethal.” (Id.

4

at 34.) Even though Friedman was not an ideal candidate for surgery, an invasive

5

exploratory surgery of the abdomen was performed. (Id. at 10-11.) During the

6

surgery, Friedman began vomiting and he aspirated some of the vomit into his lungs.

7

(Id. at 11, 27-28.) Friedman died from pneumonia ten days after the surgery on

8

February 9, 2007. (Id. at 27-28.)

9

The evidence was legally insufficient to support the conviction because the

10

unnecessary surgery was an intervening event that broke the chain of causation. The

11

evidence at trial established that the stab wounds were superficial. They did not

12

injure any internal organs and were not life-threatening.

13

responding officers and the crime scene analyst were assured that Friedman was

14

going to survive. However, despite the fact that Friedman was not going to die from

15

the wounds, an improper surgical procedure was done, which resulted in Friedman

16

aspirating vomit and dying of pneumonia. No evidence was presented at trial that

17

this was a necessary procedure or that some other procedure short of a full

18

exploratory surgery, such as a sonogram, was not a viable option. None of the doctors

19

or medical personnel who treated Friedman were called as witnesses. Friedman’s

20

medical records were not admitted into evidence. The coroner was not able to state

21

that the procedure was necessary. Rather, he testified that only the “clinican” who

22

treated Friedman could offer that opinion. (Ex. 30.) Accordingly, the evidence at trial

23

established that the proximate cause of Friedman’s death was the unnecessary

24

surgery and not the stabbing. Consequently, the evidence was insufficient to support

25

the murder conviction. Any contrary decision by a state court would be contrary to,

26

or an unreasonable application of, clearly established federal law, and/or would

27
11

Indeed, all of the

App.0053
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 12 of 41

1

involve an unreasonable determination of the facts. See 28 U.S.C. 2254(d)(1) and (2).

2

The writ should be granted and the murder conviction and sentence should be

3

vacated.

4

B.

5
6
7
8
9
10
11
12
13
14
15
16

Evidence Was Legally Insufficient to Support the Conspiracy to Commit
Robbery Conviction
In an amended information, Dominguez was charged with murder with use a

deadly weapon, robbery with use of a deadly weapon, and conspiracy to commit
robbery and murder based on allegations that he and others, including Tomines and
his brother Ivan, robbed and stabbed Mark Friedman in his home, which resulted in
his death. (Ex. 43.)
The State’s theory at trial was that Tomines conspired with Dominguez to both
rob and kill Friedman because she owed him a lot of money and, if Friedman was
gone, the debt would be erased. (Ex. 57 at 123.) Tomines often stayed in Friedman’s
home. On the night of the incident, she allegedly let Dominguez, whom she knew,
and others into Friedman’s house to lie in wait for Friedman so that they could attack
him when he came home.

17

While the evidence at trial showed that there was a physical attack on

18

Friedman, there was insufficient evidence to show that there had been either a

19

robbery or a conspiracy to rob Friedman. Friedman claimed that he was attacked by

20

multiple individuals, but could provide very little details about the attack itself as he

21

could not even identify the object with which he was hit. (Ex. 41 at 43.) Immediately

22

after the attack, Friedman informed the police that the attackers took his keys and

23

wallet. (Id. at 43.) However, the keys were later found in Friedman’s shirt pocket.

24

(Ex. 42 at 73; Ex. 53 at 49.) While the wallet was never recovered (Ex. 53 at 54), there

25

was no evidence that the attackers had taken it. None of Friedman’s credit cards had

26

been used after the attack (Id. at 56). If the keys were not stolen, it makes it just as

27

likely that the wallet was not stolen. Rather than the attackers taking the wallet, it
12

App.0054
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 13 of 41

1

was just as likely that the wallet fell out of his pocket during the attack or when

2

paramedics were treating him at the scene and Tomines, who had access to the house

3

after the attack, grabbed the wallet at some point. Friedman’s statement, made while

4

under the shock of the incident, was insufficient to establish that a robbery had

5

occurred.

6

In fact, even under the State’s theory of the case, it was not logical that there

7

would be a conspiracy to commit robbery. As a detective admitted at trial, the amount

8

of violence was “a little excessive” for the robbery of a wallet. (Ex. 42 at 88.) Further,

9

if Tomines wanted Friedman dead to make her debt disappear, it would make no

10

sense for her to conspire with anyone to steal the wallet. The evidence was far more

11

consistent with an agreement to physically attack Friedman, not rob him.

12

Further, the State’s evidence that a conspiracy existed was entirely

13

circumstantial. The State presented phone records showing that Dominguez and

14

Tomines spoke over 100 times on the phone in the time period around the assault.

15

(Ex. 53 at 73.) The State also presented cell tower information, showing that close in

16

time to the incident a call from Dominguez to Tomines bounced off a cell tower within

17

two miles of Friedman’s home. (Id. at 88.) Nevertheless, there was no reliable direct

18

evidence that Tomines and Dominguez had entered into any agreement with one

19

another to specifically rob Friedman. To be sure, Dominguez admitted in his second

20

statement to the police that he was at the house on that night and was there because

21

Tomines asked him to be there to speak to Friedman. (Ex. 8 at 15-16.) However, that

22

statement was not voluntary.

23

fraudulent statements to Dominguez in order to pressure him into confessing. The

24

detective acknowledged that he falsely told Dominguez that Tomines had implicated

25

him, that they had found Petitioner’s DNA on the victim, and that the neighbors had

26

saw him entering the house.

The interrogating detectives admittedly made

(Ex. 53 at 6-8.)

27
13

It was clear that Dominguez’s

App.0055
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 14 of 41

1

statements were made as a result of this undue pressure, rather than the result of

2

his own voluntary will. It was not reliable evidence.

3

It should also be pointed out that Dominguez also did not exhibit a guilty mind

4

after the incident. Dominguez spoke to the police on two occasions: April 4, 2007, and

5

then January 10, 2008. (Ex. 4, 8.) After the first statement, Dominguez went to

6

Mexico to visit his ailing father. (Ex. 8 at 12.) As Dominguez stated to the police in

7

his second statement, he would have simply stayed in Mexico and hid from the police,

8

as Tomines did in the Philippines, if he had committed a crime. (Id.) However, he

9

returned to the United States. Dominguez had a clear opportunity to flee, but did

10

not.

11

Moreover, Ivan was tried separately on the same charges based on the exact

12

same evidence and the jury in his case acquitted him of the conspiracy to commit

13

robbery charges. (Ex. 70.) That jury was correct. It is impossible to conclude on the

14

State’s evidence that there was a conspiracy to commit robbery.

15

Consequently, the evidence was legally insufficient to support the conspiracy

16

to commit robbery conviction.

17

contrary to, or an unreasonable application of, clearly established federal law, and/or

18

would involve an unreasonable determination of the facts. See 28 U.S.C. 2254(d)(1)

19

and (2). The writ should be granted and the conviction vacated.

20

C.

Any contrary decision by a state court would be

Evidence Was Legally Insufficient to Support the Robbery Conviction

21

In an amended information, Dominguez was charged with murder with use a

22

deadly weapon, robbery with use of a deadly weapon, and conspiracy to commit

23

robbery and murder based on allegations that he and others, including Tomines and

24

his brother Ivan, robbed and stabbed Mark Friedman in his home, which resulted in

25

his death. (Ex. 43.)

26
27
14

App.0056
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 15 of 41

1

The State’s theory at trial was that Tomines conspired with Dominguez to both

2

rob and kill Friedman because she owed him a lot of money and, if Friedman was

3

gone, the debt would be erased. (Ex. 57 at 123.)

4

While the evidence at trial showed that there was a physical attack on

5

Friedman, there was insufficient evidence to show that there had been a robbery.

6

Friedman claimed that he was attacked by multiple individuals, but could provide

7

very little details about the attack itself as he could not even identify the object with

8

which he was hit. (Ex. 41 at 43.) Immediately after the attack, Friedman informed

9

the police that the attackers took his keys and wallet. (Id.) However, the keys were

10

later found in Friedman’s shirt pocket. (Ex. 42 at 73; Ex. 53 at 49.) While the wallet

11

was never recovered (Ex. 53 at 54), there was no evidence that the attackers had

12

taken it. None of his credit cards had been used after the attack. (Id. at 56.) If the

13

keys were not stolen, it makes it highly likely that the wallet was not stolen. Rather

14

than the attackers taking the wallet, it was just as likely that the wallet fell out of

15

his pocket during the attack or when paramedics were treating him at the scene and

16

Tomines, who had access to the house after the attack, grabbed the wallet at some

17

point.

18

insufficient to establish that a robbery had occurred.

Friedman’s statement, made while under the shock of the incident, was

19

In fact, even under the State’s theory of the case, it was not logical that the

20

attackers would steal anything from Friedman. As a detective admitted at trial, the

21

amount of violence was “a little excessive” for the robbery of a wallet. (Ex. 42 at 88.)

22

Further, if Tomines wanted Friedman dead to make her debt disappear, it would

23

make no sense for her to have someone steal the wallet. The evidence was far more

24

consistent with an agreement to physically attack Friedman, not rob him.

25

Moreover, Ivan was tried separately on the same charges based on the exact

26

same evidence and the jury in his case acquitted him of the robbery charges. That

27
15

App.0057
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 16 of 41

1

jury was correct. It is impossible to conclude on the State’s evidence that a robbery

2

had occurred.

3

Consequently, the evidence was legally insufficient to support the conspiracy

4

to commit robbery conviction.

5

contrary to, or an unreasonable application of, clearly established federal law, and/or

6

would involve an unreasonable determination of the facts. See 28 U.S.C. 2254(d)(1)

7

and (2). The writ should be granted and the conviction vacated.

Any contrary decision by a state court would be

8

GROUND TWO

9

DOMINGUEZ WAS DENIED HIS RIGHT TO THE
EFFECTIVE ASSISTANCE OF COUNSEL UNDER THE
SIXTH AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION BECAUSE HIS
ATTORNEY FAILED TO MOVE TO DISMISS MURDER
AND CONSPIRACY TO COMMIT MURDER CHARGES.

10
11
12
13

Statement of Exhaustion: The Nevada Supreme Court decided upon this claim

14

in the appeal from the denial of the second post-conviction petition. (Exs. 112, 123,

15

124.)

16

Under the Sixth and Fourteenth Amendments to the United States

17

Constitution, a defendant has the right to the effective assistance of trial counsel. To

18

establish a claim of ineffective assistance of counsel, a petitioner must show: (1) that

19

the counsel’s performance was professionally unreasonable: and (2) that there “is a

20

reasonable probability that, but for the counsel’s unprofessional errors, the result of

21

the proceeding would have been different.” Strickland v. Washington, 466 U.S. 668,

22

694 (1984.) “A reasonable probability is a probability sufficient to undermine the

23

confidence in the outcome.” Id.

24

In an amended information, Dominguez was charged, inter alia, under count 2

25

with conspiracy to commit murder and under count 6 with murder with use a deadly

26
27
16

App.0058
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 17 of 41

1

weapon based on allegations that he and others, including Tomines and his brother

2

Ivan, stabbed Mark Friedman in his home, which resulted in his death. (Ex. 43.)

3

Based on the evidence admitted at trial, counsel should have moved to dismiss

4

counts 2 and 6 because there was an intervening cause for Friedman’s death, namely

5

an unnecessary surgery. As a result, Dominguez was not guilty of committing a

6

murder. The evidence established that, at approximately 3:30 a.m. on January 30,

7

2007, Friedman entered his home at 735 Molly Knoll Circle through his garage and

8

was jumped by five Hispanic males and one Hispanic female and beat him with an

9

unknown object. (Ex. 41 at 42-43.) Officer Garth Findley responded to the scene.

10

When he arrived Friedman was sitting in a chair in his garage. (Id. at 40-41.)

11

Friedman told him what happened. (Id. at 42-43.) Findley did not administer any

12

first aid to Friedman. The paramedics arrived about five minutes after Findley

13

arrived. (Id. at 52.)

14

Louise Renhard, a crime scene analyst, responded to 735 Molly Knoll Lane.

15

(Ex. 42 at 23.) Medical personnel told her that Friedman was going to live. (Id. at

16

74.) Detective Gordon Martines was assigned to investigate the incident. When he

17

arrived, he was told that the victim had been transported to the hospital. (Id. at 79.)

18

His partner told him that Friedman was going to survive and that his condition did

19

not look life-threatening. (Id. at 87, 93.) Martines interviewed Tomines, who was

20

present at the scene. In the interview, he indicated to her that Friedman was going

21

to be okay. (Id. at 97; Ex. 1 at 32:45.) Martines did not make an effort to interview

22

Friedman on that day because it was his understanding there was “no indication that

23

he’s going to pass away.” (Ex. 42 at 98.)

24

Friedman had been stabbed three times in his torso. (Ex. 53 at 14.) There was

25

no “direct internal injury” from the stab wounds and none of them connected with a

26

vital organ. (Id. at 10, 14-17, 30.) The stab wounds themselves “were not lethal.” (Id.

27
17

App.0059
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 18 of 41

1

at 34.)

2

though Friedman was not an ideal candidate for surgery. (Id. at 10-11.) During the

3

surgery, Friedman began vomiting and he aspirated some of the vomit into his lungs.

4

(Id. at 11, 27-28.) Friedman died from pneumonia ten days after the surgery on

5

February 9, 2007. (Id. at 27-28.)

Nevertheless, exploratory surgery of the abdomen was performed, even

6

The evidence established that the unnecessary surgery was an intervening

7

event that broke the chain of causation. The trial evidence established that the stab

8

wounds were superficial. They did not injure any internal organs and were not life-

9

threatening. Indeed, all of the responding officers and the crime scene analyst were

10

assured that Friedman was going to survive.

11

Friedman was not going to die from the wounds, an invasive unnecessary surgical

12

procedure was done, which resulted in Friedman aspirating vomit and dying of

13

pneumonia. As such, the unnecessary surgery was the intervening cause of the

14

death.

However, despite the fact that

15

In fact, no evidence was presented at trial that the surgery was a necessary

16

procedure and that some other procedure short of a full exploratory surgery, such as

17

a sonogram, could not have been employed. None of the doctors or medical personnel

18

who treated Friedman were called as witnesses. Friedman’s medical records were

19

not admitted into evidence. The prosecution’s failure to introduce these records or

20

call the individuals who treated Friedman raised a strong adverse inference that they

21

would have provided evidence demonstrating that the surgery was not necessary.

22

Further, the length of time between the incident and the date of Friedman’s death

23

also raised questions about the cause of death. He was clearly put on notice that this

24

was an issue that needed to be pursued. Counsel’s performance was clearly deficient

25

for failing to obtain the relevant medical records and consult an expert who could

26
27
18

App.0060
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 19 of 41

1

have definitively established that the surgery was unnecessary. It was a critical step

2

that could have been used to support the motion to dismiss.

3

The State’s only evidence at trial that the stabbing, as opposed to an

4

unnecessary surgery, was the true cause of the death was the testimony from a

5

coroner, who did not conduct the autopsy and was not present when it occurred. He

6

testified about the results contained in the autopsy report, prepared by Dr. Piotr

7

Kubiczek. The report concluded that the cause of death was multiple stab wounds.

8

(Ex. 3 at 1.)

9

However, neither the coroner nor the autopsy report provided reliable

10

evidence.

11

conclusion unreliable.

12

vascular surgery, reviewed the report and indicated that, “[d]espite the obvious

13

internal findings of a pneumonic process, Dr. Kubiczek also did not document those

14

findings in his postmortem diagnoses of Mr. Friedman.”

15

Kubiczek’s failure to do this appears to be a deliberate effort to suppress the true

16

cause of death in order to support his questionable finding that the stabs cause the

17

death as opposed to the unnecessary surgical intervention. Dr. Hirschfeld found

18

others problems with the report.

19

indelling endotracheal tube, as well as prior placement of a soft cervical collar

20

associated with healing abrasions of the anterior and posterior neck, Dr. Kubiczek

21

did not document “the presence of a tracheostomy or tracheotomy tube, any stab

22

wounds to the neck or any evidence of surgical exploration of the neck.” (Id. at 1.)

23

There was also no evidence in the autopsy report that Dr. Kubiczek had done “a

24

hospital investigation of Mr. Friedman’s death.” Id.

There were clear problems with the autopsy report, rendering its
Dr. Bruce J. Hirschfeld, who specializes in general and

(Ex. 106 at 2.)

Dr.

While the report indicates that there was an

25

Further, in the report, there is “no clinical correlation given to the findings of

26

phenytoin in the blood.” (Ex. 106 at 2.) This is a critical omission. As Dr. Hirschfeld

27
19

App.0061
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 20 of 41

1

explains, phenytoin is an anti-seizure or anti-epileptic drug. Id. at 2-3. Its presence

2

in Friedman’s body “raises the question” of whether there was an additional

3

intervening event that could have caused the death. Id.

4

The coroner who testified also did not provide reliable evidence to establish

5

that the stabbing was the cause of death. Preliminarily, this coroner, Dr. Gary

6

Telgenhoff, was not the coroner who conducted the autopsy and he was not present

7

when it occurred. (Ex. 53 at 7-8.) Moreover, he was not able to state that the surgical

8

procedure was necessary. Rather, he testified that only the “clinician” who treated

9

Friedman could offer that opinion. (Id. at 30.) It is Dr. Hirschfeld’s opinion that

10

Telgenhoff simply was not qualified to provide any opinion on whether to “causally

11

associate surgical complications with morbidity and/or mortality.” (Ex. 106 at 2.)

12

Further, Dr. Telgenhoff’s testimony regarding Friedman’s tracheostomy and neck

13

exploration “appears to be, in part, false and misleading as there is no evidence

14

documented at the time of the autopsy that Mr. Friedman underwent elective or

15

emergent tracheostomy, had a tracheostomy tube in place, or that he underwent any

16

type of neck exploration for stab wounds.” (Id.)

17

Overall, Dr. Hirschfeld opined that “the autopsy findings [for] Mr. Friedman

18

and trial testimony of Dr. Telgenhoff provide a picture of an incomplete and

19

inadequate clinical evaluation of the cause and effect of multiple stab wounds

20

sustained by Mr. Friedman in his untimely death.” (Ex. 106 at 3.)

21

Further, after an exhaustive review of the medical records as detailed in his

22

report (see Ex. 111 at 1-9), Dr. Hirschfeld has now confirmed in a report that his prior

23

opinions about the inadequacies in the coroner’s work and the inaccuracy in Dr.

24

Telgenhoff’s testimony are fully justified. (Id. at 9.)

25

Moreover, the doctor has opined in that same report that, based on the medical

26

records, “the direct and primary cause of Mr. Friedman’s death was not an assault,

27
20

App.0062
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 21 of 41

1

with sharp stab wound penetrating injuries to the abdomen and right flank, which

2

was only a proximate cause of his death because of the clinical nature in which he

3

was treated.” (Id. at 9-10.) Rather, the primary cause of death was a “postoperative

4

reaction to high-dose morphine sulfate, and possibly a post-anesthetic reaction,

5

resulting in severe nausea, vomiting, and critical aspiration pneumonitis, with a

6

failure clinically to prevent this known postoperative problem, with an inability to

7

timely control the situation” through proper methods that left “Mr. Friedman with a

8

severe anoxic brain injury.” (Id. at 10.)

9

According to the doctor, this actual cause of death was critical here because,

10

“had the jury been educated about the true facts of Mr. Friedman’s medical course,

11

complications, and alternatives to the treatment he received,” it could have impacted

12

upon the decision-making process. (Id.) In his report, the doctor emphasized that it

13

was undisputed that the injuries from the assault were not life-threatening. (Id.)

14

That was true even if they were treated conservatively. (Id.) However, instead, the

15

doctors engaged in a highly aggressive course of treatment. According to the doctor,

16

Friedman’s injuries when arriving at the hospital “did not necessarily require an

17

emergency laparotomy, with general aesthetic, with a large abdominal incision.” (Id.

18

(emphasis added).)

19

Rather, there were far more conservative approaches that would not have

20

resulted in a situation that placed Friedman’s life in danger.

21

indicated, “Alternatives to this approach would have been emergency department

22

bedside ultrasound and/ or CT scan of the abdomen and pelvis, with admission for

23

serial observation, including closure of the abdominal fascial defect and either

24

primary or secondary closure of the abdominal and right flank wounds. In addition,

25

Mr. Friedman could have undergone a peritoneal lavage.” (Id.)

26
27
21

The doctor has

App.0063
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 22 of 41

1

As a result, it is Dr. Hirschfeld’s opinion, “to a reasonable degree of medical

2

probability, that had this course of action been taken, [there] would have been no

3

indication for an emergency operation, and if the surgery had been determined to be

4

necessary, by way of preoperative evaluation as discussed above, it could have been

5

more electively, with Mr. Friedman being NPO for a six to eight-hour period, which

6

would have protected him from the postoperative complication of vomiting large

7

chunks of material and aspiration of that material, resulting in cardiopulmonary

8

arrest, pneumonitis, and anoxic brain injury.” (Id. at 10-11 (emphasis added).) He

9

indicates that this “can be confirmed, to a reasonable degree of medical probability,

10

as this more conservative approach to a penetrating abdominal stab wounds, looking

11

at the zone of penetration in the literature, supports this type of evaluation, which

12

would have averted the need for emergency laparotomy and the complications that

13

developed.” (Id. (emphasis added).)

14

Overall, Dr. Hirschfeld believes, “to a reasonable degree of medical probability,

15

after reviewing Mr. Friedman’s care and treatment at UMC, that the abdominal and

16

right flank penetrating injuries he sustained were not life threatening at the time of

17

his laparotomy, and would never have become life threatening if treated in an

18

alternative fashion, as outlined above, by closure of the abdominal fascial defect, local

19

wound care, with antibiotics, a CT scan of the abdomen and pelvis, and /or peritoneal

20

lavage, with observation.” (Id.) It is his opinion that, “Mr. Friedman, unfortunately,

21

died due to an aggressive approach to his injuries in a stable patient, with a stern-to-

22

stern exploratory laparotomy done on an emergency basis and unfortunately

23

complicated by nausea, severe vomiting, aspiration, cardiopulmonary arrest, and

24

anoxic brain injury.” (Id.) He concludes, “This series of circumstances could have

25

been prevented. . . .”

26
27
22

App.0064
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 23 of 41

1

Thus, Dr. Hirschfeld’s opinion establishes that the doctors’ over-aggressive and

2

unnecessary surgical intervention represented an intervening cause for Friedman’s

3

death.

4

Accordingly, counsel’s failure to dismiss the murder and conspiracy to commit

5

murder counts represented deficient performance. In fact, counsel did not even raise

6

the intervening cause argument as a defense at trial. There was no strategic reason

7

for failing to move to dismiss on this ground. This deficient performance severely

8

prejudiced Dominguez. Any contrary decision by a state court would be contrary to,

9

or an unreasonable application of, clearly established federal law, and/or would

10

involve an unreasonable determination of the facts. See 28 U.S.C. 2254(d)(1) and (2).

11

The writ should be granted and the murder and conspiracy to commit murder

12

convictions and the sentences on those convictions should be vacated.

13

GROUND THREE

14

DOMINGUEZ WAS DENIED HIS RIGHT TO THE
EFFECTIVE ASSISTANCE OF COUNSEL UNDER THE
SIXTH AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION BECAUSE HIS
ATTORNEY FAILED TO INVESTIGATE THE STATE’S
WITNESSES

15
16
17
18

Statement of Exhaustion: The Nevada Supreme Court decided upon this claim

19

in the appeal from the denial of the second post-conviction petition. (Exs. 112, 123,

20

124.)

21

Under the Sixth and Fourteenth Amendments to the United States

22

Constitution, a defendant has the right to the effective assistance of trial counsel. To

23

establish a claim of ineffective assistance of counsel, a petitioner must show: (1) that

24

the counsel’s performance was professionally unreasonable: and (2) that there “is a

25

reasonable probability that, but for the counsel’s unprofessional errors, the result of

26

the proceeding would have been different.” Strickland v. Washington, 466 U.S. 668,

27
23

App.0065
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 24 of 41

1

694 (1984.) “A reasonable probability is a probability sufficient to undermine the

2

confidence in the outcome.” Id.

3

Counsel is obligated to fully investigate all aspects of a case. Reasonable

4

performance of trial counsel includes an adequate investigation, as it is an attorney’s

5

duty to conduct a thorough investigation of all avenues of a case. This is not strategy

6

but adequate preparation for trial and effective assistance of counsel.

7

There is no indication in the record that counsel conducted an adequate

8

investigation in preparation for trial. The State gave notice that it intended to call

9

numerous witnesses to testify about the medical evidence. Specifically, the State

10

gave notice of the following witnesses before trial: (1) Drs. Laura Boomer, Deborah

11

Kulls, David McElmeel, Casey Michael, Deborah Mogelog, Patrick Murphy,

12

Sernariano, Shaw Tang, and Stephanie Woodard, from UMC, all of whom would

13

testify about the nature of the injuries and treatment to Friedman; (2) Dr. Piotr

14

Kubiczek or a designee from the coroner’s office, to testify about the cause of death;

15

and (3) paramedics/AMR Unit 3911, who would testify about the nature of injuries

16

and treatment to Friedman. (Exs. 30, 32.) The State then called a “designee,” Dr.

17

Gary Telgenhoff, to testify about the autopsy report. (Ex. 52 at 7-8.)

18

An investigation into these witnesses would have established that the stabbing

19

did not cause the death. There was an intervening cause for Friedman’s death,

20

namely the unnecessary surgery. Such an investigation would have included, at the

21

very least, obtaining the medical records and consulting an expert to review the

22

records as well as the autopsy report. There is absolutely no indication in the record

23

that counsel took these crucial steps. Further, counsel was clearly put on notice that

24

such an investigation into these potential witnesses was necessary. The autopsy

25

report itself indicates that Friedman death did not occur until 10 days after the

26

incident, raising a question as to whether the stabbing caused the death. Indeed,

27
24

App.0066
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 25 of 41

1

when the Stated did not call any of the individuals who treated Friedman or introduce

2

Friedman’s medical records into evidence, this raised a strong adverse inference that

3

this evidence would have undermined the State’s theory of the case.

4

The letter (Ex. 106) and expert report (Ex. 111) from Dr. Bruce J. Hirschfeld,

5

who specializes in general and vascular surgery, establishes that an investigation

6

was crucial in order to challenge the State’s witnesses at trial. Such an investigation

7

would have definitively established two things: (1) the State’s causation evidence was

8

not reliable; and (2) there was an intervening event that caused the death, namely

9

the unnecessary surgery.

10

First, with respect to the State’s evidence on causation, the State called Dr.

11

Telgenhoff, who testified about the autopsy report written by Dr. Kubiczek. However,

12

Dr. Hirschfeld indicated that there were fundamental problems with the testimony

13

and the report. Dr. Hirschfeld has indicated that, “[d]espite the obvious internal

14

findings of a pneumonic process, Dr. Kubiczek also did not document those findings

15

in his postmortem diagnoses of Mr. Friedman.” (Ex. 106 at 2.) Dr. Kubiczek’s failure

16

to do this appears to be a deliberate effort to suppress the true cause of death in order

17

to support his questionable finding that the stabs cause the death as opposed to the

18

unnecessary surgical intervention. Dr. Hirschfeld found other problems with the

19

report. While the report indicates that there was an indelling endotracheal tube, as

20

well as prior placement of a soft cervical collar associated with healing abrasions of

21

the anterior and posterior neck, Dr. Kubiczek did not document “the presence of a

22

tracheostomy or tracheotomy tube, any stab wounds to the neck or any evidence of

23

surgical exploration of the neck.” (Id. at 1.) There was also no evidence in the autopsy

24

report that Dr. Kubiczek had done “a hospital investigation of Mr. Friedman’s death.”

25

Id.

26
27
25

App.0067
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 26 of 41

1

Further, in the report, there is “no clinical correlation given to the findings of

2

phenytoin in the blood.” (Ex. 106 at 2.) This is a critical omission. As Dr. Hirschfeld

3

explains, phenytoin is an anti-seizure or anti-epileptic drug. Id. at 2-3. Its presence

4

in Friedman’s body “raises the question” of whether there was an additional

5

intervening event that could have caused the death. Id.

6

The coroner who testified also did not provide reliable evidence to establish

7

that the stabbing was the cause of death. Preliminarily, as mentioned before, Dr.

8

Telgenhoff was not the coroner who conducted the autopsy. (Ex. 53 at 7-8.) Moreover,

9

he was not able to state that the surgical procedure was necessary. Rather, he

10

testified that only the “clinician” who treated Friedman could offer that opinion. (Id.

11

at 30.) It is Dr. Hirschfeld’s opinion that Telgenhoff simply was not qualified to

12

provide any opinion on whether to “causally associate surgical complications with

13

morbidity and/or mortality.”

14

regarding Friedman’s tracheostomy and neck exploration “appears to be, in part, false

15

and misleading as there is no evidence documented at the time of the autopsy that

16

Mr. Friedman underwent elective or emergent tracheostomy, had a tracheostomy

17

tube in place, or that he underwent any type of neck exploration for stab wounds.”

18

(Id.)

(Ex. 106 at 2.) Further, Dr. Telgenhoff’s testimony

19

Overall, Dr. Hirschfeld opined that “the autopsy findings [for] Mr. Friedman

20

and trial testimony of Dr. Telgenhoff provide a picture of an incomplete and

21

inadequate clinical evaluation of the cause and effect of multiple stab wounds

22

sustained by Mr. Friedman in his untimely death.” (Ex. 106 at 3.)

23

Further, after an exhaustive review of the medical records as detailed in his

24

report (see Ex. 111 at 1-9), Dr. Hirschfeld has now confirmed in a report that his prior

25

opinions about the inadequacies in the coroner’s work and the inaccuracy in Dr.

26

Telgenhoff’s testimony is fully justified. (Id. at 9.)

27
26

App.0068
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 27 of 41

1

Moreover, the doctor has opined in that same report that, based on the medical

2

records, “the direct and primary cause of Mr. Friedman’s death was not an assault,

3

with sharp stab wound penetrating injuries to the abdomen and right flank, which

4

was only a proximate cause of his death because of the clinical nature in which he

5

was treated.” (Id. at 9-10.) Rather, the primary cause of death was a “postoperative

6

reaction to high-dose morphine sulfate, and possibly a post-anesthetic reaction,

7

resulting in severe nausea, vomiting, and critical aspiration pneumonitis, with a

8

failure clinically to prevent this known postoperative problem, with an inability to

9

timely control the situation” through proper methods that left “Mr. Friedman with a

10

severe anoxic brain injury.” (Id. at 10.)

11

According to the doctor, this actual cause of death was critical here because,

12

“had the jury been educated about the true facts of Mr. Friedman’s medical course,

13

complications, and alternatives to the treatment he received,” it could have impacted

14

upon the decision-making process (Id.) In his report, the doctor emphasized that it

15

was undisputed that the injuries from the assault were not life-threatening. (Id.)

16

That was true even if they were treated conservatively. (Id.) However, instead, the

17

doctors engaged in a highly aggressive course of treatment. According to the doctor,

18

Friedman’s injuries when arriving at the hospital “did not necessarily require an

19

emergency laparotomy, with general aesthetic, with a large abdominal incision.” (Id.

20

(emphasis added).)

21

Rather, there were far more conservative approaches that would not have

22

resulted in a situation that placed Friedman’s life in danger.

23

indicated, “Alternatives to this approach would have been emergency department

24

bedside ultrasound and/ or CT scan of the abdomen and pelvis, with admission for

25

serial observation, including closure of the abdominal fascial defect and either

26
27
27

The doctor has

App.0069
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 28 of 41

1

primary or secondary closure of the abdominal and right flank wounds. In addition,

2

Mr. Friedman could have undergone a peritoneal lavage.” (Id.)

3

As a result, it is Dr. Hirschfeld’s opinion, “to a reasonable degree of medical

4

probability, that had this course of action been taken, [there] would have been no

5

indication for an emergency operation, and if the surgery had been determined to be

6

necessary, by way of preoperative evaluation as discussed above, it could have been

7

more electively, with Mr. Friedman being NPO for a six to eight-hour period, which

8

would have protected him from the postoperative complication of vomiting large

9

chunks of material and aspiration of that material, resulting in cardiopulmonary

10

arrest, pneumonitis, and anoxic brain injury.” (Id. at 10-11 (emphasis added).) He

11

indicates that this “can be confirmed, to a reasonable degree of medical probability,

12

as this more conservative approach to a penetrating abdominal stab wounds, looking

13

at the zone of penetration in the literature, supports this type of evaluation, which

14

would have averted the need for emergency laparotomy and the complications that

15

developed.” (Id. (emphasis added).)

16

Overall, Dr. Hirschfeld believes, “to a reasonable degree of medical probability,

17

after reviewing Mr. Friedman’s care and treatment at UMC, that the abdominal and

18

right flank penetrating injuries he sustained were not life threatening at the time of

19

his laparotomy, and would never have become life threatening if treated in an

20

alternative fashion, as outlined above, by closure of the abdominal fascial defect, local

21

wound care, with antibiotics, a CT scan of the abdomen and pelvis, and /or peritoneal

22

lavage, with observation.” (Id.) It is his opinion that, “Mr. Friedman, unfortunately,

23

died due to an aggressive approach to his injuries in a stable patient, with a stern-to-

24

stern exploratory laparotomy done on an emergency basis and unfortunately

25

complicated by nausea, severe vomiting, aspiration, cardiopulmonary arrest, and

26
27
28

App.0070
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 29 of 41

1

anoxic brain injury.” (Id.) He concludes, “This series of circumstances could have

2

been prevented. . . .”

3

Thus, Dr. Hirschfeld’s opinion establishes that the doctors’ over-aggressive and

4

unnecessary surgical intervention represented an intervening cause for Friedman’s

5

death.

6

Counsel was clearly deficient for failing to investigate the State’s witnesses.

7

With respect to the medical witnesses, an investigation would have placed the defense

8

in a position to contradict the State’s causation theory.

9

investigation would have shown that there were significant grounds on which to

In fact, a rudimentary

10

challenge that theory.

11

intervening cause as a defense at trial. There was no strategic reason for failing to

12

do this. This deficient performance severely prejudiced Dominguez. Any contrary

13

decision by a state court would be contrary to, or an unreasonable application of,

14

clearly established federal law, and/or would involve an unreasonable determination

15

of the facts. See 28 U.S.C. 2254(d)(1) and (2). The writ should be granted and the

16

conviction and sentence vacated.

17
18
19
20
21
22
23

Counsel did not pursue them.

He did not even raise

GROUND FOUR

DOMINGUEZ WAS DENIED HIS RIGHT TO
EFFECTIVE ASSISTANCE OF COUNSEL UNDER
SIXTH AND FOURTEENTH AMENDMENTS TO
UNITED STATES CONSTITUTION BECAUSE
ATTORNEY
FAILED
TO
OBJECT
TO
REASONABLE DOUBT CHARGE

THE
THE
THE
HIS
THE

Statement of Exhaustion: This Nevada Supreme Court decided upon this
claim in the appeal from the denial of the post-conviction petition. (Ex. 103.)

24

Under the Sixth and Fourteenth Amendments to the United States

25

Constitution, a defendant has the right to the effective assistance of trial counsel. To

26

establish a claim of ineffective assistance of counsel, a petitioner must show: (1) that

27
29

App.0071
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 30 of 41

1

the counsel’s performance was professionally unreasonable: and (2) that there “is a

2

reasonable probability that, but for the counsel’s unprofessional errors, the result of

3

the proceeding would have been different.” Strickland v. Washington, 466 U.S. 668,

4

694 (1984.) “A reasonable probability is a probability sufficient to undermine the

5

confidence in the outcome.” Id.

6

The

reasonable

doubt

instructions

given

at

Dominguez’s

trial

7

unconstitutionally shifted the burden to Dominguez, lowered the State’s burden of

8

proof, and relieved the State of its obligation to prove all of the elements of the

9

charged crime. Trial counsel did not object to the instructions.

10
11

The jury instructions defining reasonable doubt, instruction 39, read as
follows:

12

The defendant is presumed innocent until the
contrary is proven. This presumption places upon the
State the burden of proving beyond a reasonable doubt
every material element of the crime charged and that the
defendant is the person who committed the offense.

13
14
15

A reasonable doubt is one based on reason. It is not
mere possible doubt but is such a doubt as would govern or
control a person in more weighty affairs of life. If [sic] the
minds of the jurors, after the entire comparison and
consideration of all the evidence, are in such a condition
that they can say they feel an abiding conviction of the
truth of the charge, there is not a reasonable doubt. Doubt
to be reasonable must be actual, not mere possibility or
speculation.

16
17
18
19
20
21
22
23
24
25
26
27

(Ex. 55, Instruction No. 39.)
The improper reasonable doubt instruction in his case was an error of
constitutional magnitude. Trial counsel was ineffective for failing to object to the
instruction.

There was no strategic reason for failing to object to the charge.

Dominguez was prejudiced based on counsel’s failure to object to the charge. Any
contrary decision by a state court would be contrary to, or an unreasonable
30

App.0072
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 31 of 41

1

application of, clearly established federal law, and/or would involve an unreasonable

2

determination of the facts. See 28 U.S.C. 2254(d)(1) and (2). The writ should be

3

granted and the conviction and sentence vacated.

4

GROUND FIVE

5

DOMINGUEZ IS ENTITLED TO RELIEF BECAUSE OF
THE CUMULATIVE EFFECT OF TRIAL COUNSEL’S
ERRORS

6
7
8
9

Statement of Exhaustion: This claim was decided upon by the Nevada
Supreme Court in the appeal from the denial of the post-conviction petition. (Ex.
103.)

10
11
12
13
14
15
16
17

The errors set forth in Grounds Two through Four implicate important federal
constitutional rights. The cumulative effect of trial counsel’s errors discussed in
Ground Two severely prejudiced Dominguez, deprived him of a fair trial on the issue
of his guilt or innocence of the charges and also rendered his convictions unreliable.
Any contrary decision by a state court would be contrary to, or an unreasonable
application of, clearly established federal law, and/or would involve an unreasonable
determination of the facts. See 28 U.S.C. 2254(d)(1) and (2). The writ should be
granted and petitioner’s unconstitutional conviction and sentence vacated.

18

GROUND SIX

19

DOMINGUEZ’S RIGHTS TO DUE PROCESS AND A
FAIR TRIAL UNDER THE FIFTH, SIXTH AND
FOURTEENTH AMENDMENTS TO THE UNITED
STATES CONSTITUTION WERE VIOLATED WHEN
THE STATE SUPPRESSED FAVORABLE AND
MATERIAL EVIDENCE

20
21
22
23
24
25
26

Statement of Exhaustion: The Nevada Supreme Court decided upon this claim
in the appeal from the denial of the second post-conviction petition. (Ex. 112, 123,
124.)

27
31

App.0073
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 32 of 41

1

The prosecution’s suppression of evidence favorable to an accused violates

2

federal due process where the evidence is material either to guilt or to punishment,

3

irrespective of the good faith or bad faith of the prosecution. Brady v. Maryland, 373

4

U.S. 83, 87 (1963). The Brady duty extends to impeachment material. United States

5

v. Bagley, 473 U.S. 667, 676 (1985); Giglio v. United States, 405 U.S. 150, 153-54

6

(1972). “The individual prosecutor has a duty to learn of any favorable evidence

7

known to the others acting on the government’s behalf in the case, including the

8

police.” Kyles v. Whitley, 514 U.S. 419, 437 (1995). Brady evidence is material when

9

“there is a reasonable probability that, had the evidence been disclosed to the defense,

10

the result of the proceeding would have been different.” Strickler v. Greene, 527 U.S.

11

263, 280 (1999). A “showing of materiality does not require demonstration by a

12

preponderance that disclosure of the suppressed evidence would have resulted

13

ultimately in the defendant’s acquittal.” Kyles, 514 U.S. at 434. The reversal of a

14

conviction is required upon a “showing that the favorable evidence could reasonably

15

be taken to put the whole case in such a different light as to undermine confidence in

16

the verdict.” Id. at 435.

17

Thus, there are three elements to establish a Brady violation: (1) the evidence

18

was favorable to the accused, either because it is exculpatory, or because it is

19

impeaching; (2) the prosecution suppressed the evidence, either willfully or

20

inadvertently; and (3) prejudice must have ensued, i.e. the evidence was material.

21

Strickler, 527 U.S. at 281-82.

22

The prosecution’s suppression of the victim’s medical records represented a

23

Brady violation. First, these documents were in the possession of the prosecution. It

24

can easily be deduced that the State had the documents in their possession. The

25

prosecution’s witness lists identified numerous doctors by name who had treated

26

Friedman. (Ex. 30 & 32.) The State would not have been able to obtain those names

27
32

App.0074
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 33 of 41

1

without reviewing the medical records. Further, it is reasonable to conclude that, in

2

a case where the State was presenting a cause of death theory and called a coroner

3

to testify about the cause of death, the State would have obtained the medical records.

4

At the very least, it is clear from the autopsy report that the medical records were in

5

possession of the coroner, who was a member of a State agency working on the

6

investigation in tandem with law enforcement and the prosecution. In this regard,

7

possession of these records was also attributable to the prosecution. See Kyles, 514

8

U.S. at 437-38.

9
10
11

Although these medical records were in the possession of the District
Attorney’s Office, they were never turned over to the defense.
The medical records were also favorable. First, they were exculpatory as they

12

indicated that the unnecessary surgery was the cause of death.

13

undermined both the credibility of a State witness and the reliability of the coroner’s

14

report.

Second, they

15

In an amended information, Dominguez was charged, inter alia, under count 2

16

with conspiracy to commit murder and under count 6 with murder with use a deadly

17

weapon based on allegations that he and others, including Tomines and his brother

18

Ivan, stabbed Mark Friedman in his home, which resulted in his death. (Ex. 43.)

19

The evidence at trial established that, at approximately 3:30 a.m. on January

20

30, 2007, Friedman entered his home at 735 Molly Knoll Circle through his garage

21

and was jumped by five Hispanic males and one Hispanic female and beat him with

22

an unknown object. (Ex. 41 at 42-43.) Officer Garth Findley responded to the scene.

23

When he arrived Friedman was sitting in a chair in his garage. (Id. at 40-41.)

24

Friedman told him what happened. (Id. at 42-43.) Findley did not administer any

25

first aid to Friedman. The paramedics arrived about five minutes after Findley

26

arrived. (Id. at 52.)

27
33

App.0075
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 34 of 41

1

Louise Renhard, a crime scene analyst, responded to 735 Molly Knoll Lane.

2

(Ex. 42 at 23.) Medical personnel told her that Friedman was going to live. (Id. at

3

74.) Detective Gordon Martines was assigned to investigate the incident. When he

4

arrived, he was told that the victim had been transported to the hospital. (Id. at 79.)

5

His partner told him that Friedman was going to survive and that his condition did

6

not look life-threatening. (Id. at 87, 93.) Martines interviewed Tomines, who was

7

present at the scene. In the interview, he indicated to her that Friedman was going

8

to be okay. (Id. at 97; Ex. 1 at 32:45.) Martines did not make an effort to interview

9

Friedman on that day because it was his understanding there was “no indication that

10

he’s going to pass away.” (Ex. 42 at 98.)

11

Friedman had been stabbed three times in his torso. (Ex. 53 at 14.) There was

12

no “direct internal injury” from the stab wounds and none of them connected with a

13

vital organ. (Id. at 10, 14-17, 30.) The stab wounds themselves “were not lethal.” (Id.

14

at 34.)

15

though Friedman was not an ideal candidate for surgery. (Id. at 10-11.) During the

16

surgery, Friedman began vomiting and he aspirated some of the vomit into his lungs.

17

(Id. at 11, 27-28.) Friedman died from pneumonia ten days after the surgery on

18

February 9, 2007. (Id. at 27-28.)

Nevertheless, exploratory surgery of the abdomen was performed, even

19

The State’s only evidence at trial that the stabbing, as opposed to an

20

unnecessary surgery, was the true cause of the death was the testimony from a

21

coroner, Dr. Gary Telgenhoff, who did not conduct the autopsy and was not present

22

when it occurred. He testified about the results contained in the autopsy report,

23

prepared by Dr. Piotr Kubiczek. The report concluded that the cause of death was

24

multiple stab wounds. (Ex. 3 at 1.)

25

However, contrary to the State’s evidence at trial, the medical records establish

26

that the true cause of death was the intervening, unnecessary surgery, not the

27
34

App.0076
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 35 of 41

1

assault. After an exhaustive review of the medical records as detailed in his report

2

(see Ex. 111 at 1-9), Dr. Bruce Hirschfeld, who specializes in general and vascular

3

surgery, has opined in a report that, based on the medical records, “the direct and

4

primary cause of Mr. Friedman’s death was not an assault, with sharp stab wound

5

penetrating injuries to the abdomen and right flank, which was only a proximate

6

cause of his death because of the clinical nature in which he was treated.” (Id. at 9-

7

10.) Rather, the primary cause of death was a “postoperative reaction to high-dose

8

morphine sulfate, and possibly a post-anesthetic reaction, resulting in severe nausea,

9

vomiting, and critical aspiration pneumonitis, with a failure clinically to prevent this

10

known postoperative problem, with an inability to timely control the situation”

11

through proper methods that left “Mr. Friedman with a severe anoxic brain injury.”

12

(Id. at 10.)

13

According to the doctor, this actual cause of death was critical here because,

14

“had the jury been educated about the true facts of Mr. Friedman’s medical course,

15

complications, and alternatives to the treatment he received,” it could have impacted

16

upon the decision-making process. (Id.) In his report, the doctor emphasized that it

17

was undisputed that the injuries from the assault were not life-threatening. (Id.)

18

That was true even if they were treated conservatively. (Id.) However, instead, the

19

doctors engaged in a highly aggressive course of treatment. According to the doctor,

20

Friedman’s injuries when arriving at the hospital “did not necessarily require an

21

emergency laparotomy, with general aesthetic, with a large abdominal incision.” (Id.

22

(emphasis added).)

23

Rather, there were far more conservative approaches that would not have

24

resulted in a situation that placed Friedman’s life in danger.

25

indicated, “Alternatives to this approach would have been emergency department

26

bedside ultrasound and/ or CT scan of the abdomen and pelvis, with admission for

27
35

The doctor has

App.0077
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 36 of 41

1

serial observation, including closure of the abdominal fascial defect and either

2

primary or secondary closure of the abdominal and right flank wounds. In addition,

3

Mr. Friedman could have undergone a peritoneal lavage.” (Id.)

4

As a result, it is Dr. Hirschfeld’s opinion, “to a reasonable degree of medical

5

probability, that had this course of action been taken, [there] would have been no

6

indication for an emergency operation, and if the surgery had been determined to be

7

necessary, by way of preoperative evaluation as discussed above, it could have been

8

more electively, with Mr. Friedman being NPO for a six to eight-hour period, which

9

would have protected him from the postoperative complication of vomiting large

10

chunks of material and aspiration of that material, resulting in cardiopulmonary

11

arrest, pneumonitis, and anoxic brain injury.” (Id. at 10-11.) He indicates that this

12

“can be confirmed, to a reasonable degree of medical probability, as this more

13

conservative approach to a penetrating abdominal stab wounds, looking at the zone

14

of penetration in the literature, supports this type of evaluation, which would have

15

averted the need for emergency laparotomy and the complications that developed.”

16

(Id. (emphasis added).)

17

Overall, Dr. Hirschfeld believes, “to a reasonable degree of medical probability,

18

after reviewing Mr. Friedman’s care and treatment at UMC, that the abdominal and

19

right flank penetrating injuries he sustained were not life threatening at the time of

20

his laparotomy, and would never have become life threatening if treated in an

21

alternative fashion, as outlined above, by closure of the abdominal fascial defect, local

22

wound care, with antibiotics, a CT scan of the abdomen and pelvis, and /or peritoneal

23

lavage, with observation.” (Id.) It is his opinion that, “Mr. Friedman, unfortunately,

24

died due to an aggressive approach to his injuries in a stable patient, with a stern-to-

25

stern exploratory laparotomy done on an emergency basis and unfortunately

26

complicated by nausea, severe vomiting, aspiration, cardiopulmonary arrest, and

27
36

App.0078
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 37 of 41

1

anoxic brain injury.” (Id.) He concludes, “This series of circumstances could have

2

been prevented. . . .”

3

Thus, Dr. Hirschfeld’s opinion establishes that the doctors’ over-aggressive and

4

unnecessary surgical intervention represented an intervening cause for Friedman’s

5

death.

6

Further, the doctor’s review of the medical records shows that the coroner’s

7

work on the case was inadequate and that Dr. Telgenhoff gave inaccurate testimony

8

at trial. (Id. at 9.) Dr. Hirschfeld reviewed the autopsy report and indicated that,

9

“[d]espite the obvious internal findings of a pneumonic process, Dr. Kubiczek also did

10

not document those findings in his postmortem diagnoses of Mr. Friedman.” (Ex. 106

11

at 2.) The medical records show that the coroner left significant details out of his

12

report. (Ex. 111 at 9.) Dr. Hirschfeld found other problems with the report. While

13

the report indicates that there was an indelling endotracheal tube, as well as prior

14

placement of a soft cervical collar associated with healing abrasions of the anterior

15

and posterior neck, Dr. Kubiczek did not document “the presence of a tracheostomy

16

or tracheotomy tube, any stab wounds to the neck or any evidence of surgical

17

exploration of the neck.” (Ex. 106 at 2; accord Ex. 111 at 9.)

18

According to Dr. Hirschfeld, Dr. Telgenhoff, the coroner who testified, also did

19

not provide reliable evidence to establish that the stabbing was the cause of death.

20

Dr. Hirschfeld’s opinion is that Dr. Telgenhoff simply was not qualified to provide any

21

opinion on whether to “causally associate surgical complications with morbidity

22

and/or mortality.” (Ex. 106 at 2.) Further, Dr. Telgenhoff’s testimony regarding

23

Friedman’s tracheostomy and neck exploration “appears to be, in part, false and

24

misleading as there is no evidence documented at the time of the autopsy that Mr.

25

Friedman underwent elective or emergent tracheostomy, had a tracheostomy tube in

26
27
37

App.0079
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 38 of 41

1

place, or that he underwent any type of neck exploration for stab wounds.” (Id.;

2

accord Ex. 111 at 9.)

3

Overall, Dr. Hirschfeld opines that “the autopsy findings [for] Mr. Friedman

4

and trial testimony of Dr. Telgenhoff provide a picture of an incomplete and

5

inadequate clinical evaluation of the cause and effect of multiple stab wounds

6

sustained by Mr. Friedman in his untimely death.” (Ex. 106 at 3; accord Ex. 111 at

7

9-11.)

8

For these same reasons, the medical records were material. The cause of death

9

was a critical issue at trial. The medical records show that an intervening event,

10

namely the unnecessary surgery, was the true cause of death. Further, the medical

11

records undermine the reliability of the State’s evidence concerning causation. Had

12

the jury been able to review the medical records and heard an expert’s analysis of

13

those records, there is a reasonable probability that the outcome of the trial would

14

have been different.

15

Any contrary decision by a state court would be contrary to, or an unreasonable

16

application of, clearly established federal law, and/or would involve an unreasonable

17

determination of the facts. See 28 U.S.C. 2254(d)(1) and (2). The writ should be

18

granted and petitioner’s unconstitutional conviction and sentence vacated.

19
20

III.

21

PRAYER FOR RELIEF

22

Accordingly, petitioner respectfully requests that this Court:

23

1.

24

Issue a writ of habeas corpus to have Demian Dominguez brought before

the Court so that he may be discharged from his unconstitutional confinement;

25
26
27
38

App.0080
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 39 of 41

1

2.

Conduct an evidentiary hearing at which proof may be offered

2

concerning the allegations in this amended petition and any defenses that may be

3

raised by respondents; and

4

3.

5

appropriate.

Grant such other and further relief as, in the interests of justice, may be

6
7

DATED this 14th day of March, 2017.
Respectfully submitted,
RENE L. VALLADARES
Federal Public Defender

8
9
10

/s/Jonathan M. Kirshbaum

11

JONATHAN M. KIRSHBAUM
Assistant Federal Public Defender

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
39

App.0081
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 40 of 41

1

DECLARATION UNDER PENALTY OF PERJURY

2

I declare under penalty of perjury under the laws of the United States of

3

America and the State of Nevada that the facts alleged in this petition are true and

4

correct to the best of counsel's knowledge, information, and belief.

5

DATED this 14th day of March, 2017.

6
7

/s/Jonathan M. Kirshbaum

8

JONATHAN M. KIRSHBAUM
Assistant Federal Public Defender

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
40

App.0082
Case 2:12-cv-01608-JAD-PAL Document 61 Filed 03/14/17 Page 41 of 41

CERTIFICATE OF SERVICE

1
2

I hereby certify that on March 14, 2017, I electronically filed the foregoing with

3

the Clerk of the Court for the United States District Court, District of Nevada by

4

using the CM/ECF system.

5
6

Participants in the case who are registered CM/ECF users will be served by
the CM/ECF system and include: Daniel Roche

7

I further certify that some of the participants in the case are not registered

8

CM/ECF users. I have mailed the foregoing documents by First-Class Mail, postage

9

pre-paid, or have dispatched it to a third party commercial carrier for delivery within

10

three calendar days, to the following non-CM/ECF participants:

11

Demian Dominguez, #1044289
Southern Desert Correctional Center
P.O. Box 208
Indian Springs, NV 89070

12
13
14
15

/s/Adam Dunn

An Employee of the
Federal Public Defender

16
17
18
19
20
21
22
23
24
25
26
27
41

App.0083

App.0084

App.0085

App.0086

App.0087

